<html>
<title> - KEEPING COLLEGE WITHIN REACH: ENHANCING TRANSPARENCY FOR STUDENTS, FAMILIES AND TAXPAYERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     KEEPING COLLEGE WITHIN REACH:

                       ENHANCING TRANSPARENCY FOR

                    STUDENTS, FAMILIES AND TAXPAYERS
=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON HIGHER EDUCATION

                         AND WORKFORCE TRAINING

                         COMMITTEE ON EDUCATION

                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 24, 2013

                               __________

                           Serial No. 113-15

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:

                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-427                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas,
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                John A. Yarmuth, Kentucky
Matt Salmon, Arizona                 Suzanne Bonamici, Oregon
Brett Guthrie, Kentucky              Carolyn McCarthy, New York
Lou Barletta, Pennsylvania           Rush Holt, New Jersey
Joseph J. Heck, Nevada               Susan A. Davis, California
Susan W. Brooks, Indiana             David Loebsack, Iowa
Richard Hudson, North Carolina
Luke Messer, Indiana
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 24, 2013...................................     1

Statement of Members:
    Bishop, Hon. Timothy H., a Representative in Congress from 
      the State of New York......................................     4
        Prepared statement of....................................     5
    Foxx, Hon. Virginia, Chairwoman, Subcommittee on Higher 
      Education and Workforce Training...........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Garrido, Alex, student, Keiser University....................    13
        Prepared statement of....................................    15
    Heller, Dr. Donald E., dean, College of Education, Michigan 
      State University, East Lansing, MI.........................     7
        Prepared statement of....................................     9
    Hurd, Dr. Nicole Farmer, founder and executive director, 
      National College Advising Corps............................    16
        Prepared statement of....................................    19
    Reindl, Travis, program director, postsecondary education, 
      National Governors Association Center for Best Practices...    30
        Prepared statement of....................................    32

Additional Submissions:
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon, ``Information Matters,'' by the Education 
      Conservancy, Internet address to...........................    55
    Mrs. Foxx, questions submitted for the record to Dr. Hurd....    58
    Dr. Heller, response to questions submitted for the record...    57
    Hudson, Hon. Richard, a Representative in Congress from the 
      State of North Carolina, questions submitted for the record 
      to Dr. Heller..............................................    57
    Dr. Hurd, response to questions submitted for the record.....    59
    Mr. Kline, questions submitted for the record to Dr. Heller..    57
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce, prepared statement of the 
      National College Access Network............................    55


                     KEEPING COLLEGE WITHIN REACH:

                       ENHANCING TRANSPARENCY FOR

                    STUDENTS, FAMILIES AND TAXPAYERS

                              ----------                              


                       Wednesday, April 24, 2013

                     U.S. House of Representatives

        Subcommittee on Higher Education and Workforce Training

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2175, Rayburn House Office Building, Hon. Virginia Foxx 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Foxx, Thompson, Walberg, Brooks, 
Hudson, Bishop, Bonamici, McCarthy, and Davis.
    Also present: Representative Kline.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Heather Couri, Deputy Director of Education and Human 
Services Policy; Amy Raaf Jones, Education Policy Counsel and 
Senior Advisor; Brian Melnyk, Professional Staff Member; 
Krisann Pearce, General Counsel; Nicole Sizemore, Deputy Press 
Secretary; Emily Slack, Legislative Assistant; Alex Sollberger, 
Communications Director; Alissa Strawcutter, Deputy Clerk; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; Meg 
Benner, Minority Education Policy Advisor; Kelly Broughan, 
Minority Education Policy Associate; Tiffany Edwards, Minority 
Press Secretary for Education; Jamie Fasteau, Minority Director 
of Education Policy; Brian Levin, Minority Deputy Press 
Secretary/New Media Coordinator; Rich Williams, Minority 
Education Policy Advisor; and Michael Zola, Minority Deputy 
Staff Director.
    Chairwoman Foxx. Good morning, everyone. A quorum being 
present, the subcommittee will come to order. Welcome to 
today's subcommittee hearing. I would like thank our panel of 
witnesses for joining this important discussion on higher 
education transparency.
    Receiving a college acceptance letter can be one of the 
most joyous moments in a student's academic career, but for 
many families, that moment is often followed with the question: 
can we afford it?
    In January the New York Times detailed the exhaustive 
research many prospective students and parents conduct when 
choosing a college. After their son was accepted into college, 
the Ewell family of Chicago tried to navigate the federally-
mandated college cost calculators to better understand the 
financial investment, but it wasn't as easy as they had 
expected.
    Quote--``We didn't have a lot of confidence that those were 
real numbers,'' Ms. Ewell said. ``They are all so different, 
and it seemed like there were such wide ranges and so many 
caveats that it really didn't feel apples-to-apples''--end 
quote.
    In recent years, the federal government has taken steps to 
improve data collection and transparency in the higher 
education system. Under Republican leadership, the 2008 
reauthorization of the Higher Education Act included several 
provisions to help provide families with the data needed to 
make informed decisions about their postsecondary 
opportunities.
    First, the law directed the Secretary of Education to 
collect and report 26 different pieces of information about 
institutions including the percentage of students receiving 
different types of financial aid, average cost of tuition and 
fees, and the percent change in total tuition and fees. This 
data is compiled in the College Navigator, which provides 
information for approximately 7,000 colleges and universities.
    Second, the law required all colleges participating in 
federal student aid programs to post net-price calculators on 
their websites. These calculators are supposed to help families 
understand the price of attendance at an institution, factoring 
in any grant or scholarship aid to give a more realistic 
estimate. However, as the Ewell family quickly realized, the 
calculators can be hard to use and are often difficult to find 
on college websites.
    Finally, the 2008 HEA reauthorization required the 
Department of Education to develop a model financial aid award 
letter to help students better understand their aid packages. 
This Financial Aid Shopping Sheet is now used by more than 500 
colleges and universities, but some higher education leaders 
have concerns that the shopping sheets are overly cumbersome 
and lack flexibility for institutions to present information in 
a way that makes the most sense.
    President Obama recently took another step to enhance 
transparency, releasing an online tool known as the College 
Scorecard in an effort to highlight key information about 
higher education institutions, including costs, completion 
rate, and average student loan debt. According to the Center 
for American Progress, however, college-bound high school 
students struggle to understand the scorecard. Additionally, 
the scorecard has come under fire for using different 
methodologies to calculate data, creating more confusion for 
students who are trying to access accurate information about 
their postsecondary options.
    Clearly there are areas for improvement in higher education 
data. However, as we discuss opportunities to provide more 
useful information to students and families, we must also bear 
in mind the significant investment colleges and universities 
already make to comply with existing reporting requirements.
    Data collection is a time-consuming endeavor that leads to 
higher costs for many institutions. During the 2012-2013 
academic year, institutions spent an estimated 850,320 hours 
and almost $31 million to fill out required federal surveys. 
This is in addition to the time and money spent complying with 
reporting requirements from states and regional, national, or 
programmatic accrediting agencies.
    As we approach reauthorization of the Higher Education Act, 
we must discuss ways to improve data without placing additional 
burdens on institutions or creating more confusion for students 
and families. We should also explore opportunities to better 
align federal transparency initiatives with state and 
accreditors' reporting requirements. I am confident our panel 
of witnesses will provide valuable insight into these issues, 
and I look forward to their testimony.
    With that, I now yield to my distinguished colleague, Mr. 
Bishop, for his opening remarks.
    [The statement of Chairwoman Foxx follows:]

         Prepared Statement of Hon. Virginia Foxx, Chairwoman,
        Subcommittee on Higher Education and Workforce Training

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our panel of witnesses for joining this important discussion 
on higher education transparency.
    Receiving a college acceptance letter can be one of the most joyous 
moments in a student's academic career. But for many families, that 
moment is often followed with the question: can we afford it?
    In January the New York Times detailed the exhaustive research many 
prospective students and parents conduct when choosing a college. After 
their son was accepted into college, the Ewell family of Chicago tried 
to navigate the federally-mandated college cost calculators to better 
understand the financial investment--but it wasn't as easy as they had 
expected.
    ``We didn't have a lot of confidence that those were real 
numbers,'' Ms. Ewell said. ``They're all so different, and it seemed 
like there were such wide ranges and so many caveats that it really 
didn't feel apples-to-apples.''
    In recent years, the federal government has taken steps to improve 
data collection and transparency in the higher education system. Under 
Republican leadership, the 2008 reauthorization of the Higher Education 
Act included several provisions to help provide families with the data 
needed to make informed decisions about their postsecondary 
opportunities.
    First, the law directed the Secretary of Education to collect and 
report 26 different pieces of information about institutions including 
the percentage of students receiving different types of financial aid, 
average cost of tuition and fees, and the percent change in total 
tuition and fees. This data is compiled in the College Navigator, which 
provides information for approximately 7,000 colleges and universities.
    Second, the law required all colleges participating in federal 
student aid programs to post net-price calculators on their websites. 
These calculators are supposed to help families understand the price of 
attendance at an institution, factoring in any grant or scholarship aid 
to give a more realistic estimate. However--as the Ewell family quickly 
realized--the calculators can be hard to use and are often difficult to 
find on college websites.
    Finally, the 2008 HEA reauthorization required the Department of 
Education to develop a model financial aid award letter to help 
students better understand their aid packages. This Financial Aid 
Shopping Sheet is now used by more than 500 colleges and universities, 
but some higher education leaders have concerns that the shopping 
sheets are overly cumbersome and lack flexibility for institutions to 
present information in a way that makes the most sense.
    President Obama recently took another step to enhance transparency, 
releasing an online tool known as the College Scorecard in an effort to 
highlight key information about higher education institutions, 
including costs, completion rate, and average student loan debt. 
According to the Center for American Progress, however, college-bound 
high school students struggle to understand the scorecard. 
Additionally, the scorecard has come under fire for using different 
methodologies to calculate data, creating more confusion for students 
who are trying to access accurate information about their postsecondary 
options.
    Clearly there are areas for improvement in higher education data. 
However, as we discuss opportunities to provide more useful information 
to students and families, we must also bear in mind the significant 
investment colleges and universities already make to comply with 
existing reporting requirements.
    Data collection is a time-consuming endeavor that leads to higher 
costs for many institutions. During the 2012-13 academic year, 
institutions spent an estimated 850,320 hours and almost $31 million to 
fill out required federal surveys. This is in addition to the time and 
money spent complying with reporting requirements from states and 
regional, national, or programmatic accrediting agencies.
    As we approach reauthorization of the Higher Education Act, we must 
discuss ways to improve data without placing additional burdens on 
institutions or creating more confusion for students and families. We 
should also explore opportunities to better align federal transparency 
initiatives with state and accreditors' reporting requirements. I'm 
confident our panel of witnesses will provide valuable insight into 
these issues, and I look forward to their testimony. With that, I will 
now yield to my distinguished colleague, Mr. Tim Bishop, for his 
opening remarks.
                                 ______
                                 
    Mr. Bishop. Thank you very much, Chairwoman Foxx.
    First of all, let me thank our distinguished panel for 
being here with us this morning. I look forward to hearing your 
testimony and exploring in detail the many suggestions that you 
will offer today.
    I would also like to take a second to thank the majority 
for holding this hearing. Although our two sides may differ on 
many of the policies contained within the HEA reauthorization, 
the majority is to be commended for its willingness to 
consistently invite nonpartisan experts on higher education to 
testify on reauthorization.
    I would be remiss, however, if I did not also briefly 
discuss the impact of the fiscal year 2014 Republican budget on 
higher education. By eliminating the mandatory funding elements 
of the Pell Grants program, shifting Pell to a program funded 
entirely by discretionary appropriations, rolling back Pell 
eligibility expansions for low-income students, freezing the 
maximum Pell Grant for 10 years, exposing federal work-study 
and SEOG to massive cuts through sequestration and 
discretionary spending caps and allowing certain student loan 
interest rates to double on July 1, we must recognize that such 
a budget, were it ever to become law, would have a 
disproportionately negative impact on students.
    We have reached a critical point for the future of higher 
education in this nation. As we all know, college tuition 
continues to rise, state appropriations continue to fall, and 
our students are now responsible for shouldering more of the 
burden than ever before.
    With student loan debt recently surpassing $1 trillion and 
sequestration inflicting significant cuts to programs like the 
College Work Study and SEOG, it is imperative that Congress 
promotes sustainable policies that encourage college access, 
affordability, and completion for our students.
    Enrolling in college is a lifetime investment. Studies 
universally indicate that a college graduate will earn 
significantly more over his or her lifetime than a non-
graduate. While the national unemployment rates for those with 
a bachelor's degree or higher currently sits at 3.8 percent, 
for those with a high school degree or lower, the national 
unemployment rate stands at 8.5 percent.
    At the same time, a study released by Georgetown University 
notes that the gap between the supply of workers with 
postsecondary credentials and available job openings requiring 
those credentials may be as wide as 3 million people by 2018.
    And yet, research shows that the United States has fallen 
from first to 16th in the world in the percentage of 25-to 34-
year-olds with a college degree. In fact, the United States is 
the only country in the world in which degree attainment levels 
for those just entering the labor market, at 39 percent, is 
actually lower than those preparing to retire and leave the 
labor market, at 41 percent. In order to maintain global 
competitiveness and our perch as the world's top economy, we 
must continue to support our students by investing in federal 
financial aid programs that encourage college access and 
affordability.
    We must do a better job of providing students and their 
families with clear, useful, and timely information about 
college costs and financial aid options to help them make the 
right decision. Given the variety of ways students attend 
college and the growing reliance on federal financial aid 
dollars, the federal government is in a unique position to help 
collect such information so that students and their families 
can make a direct comparison across institutions.
    Although Congress, the Obama administration, and the 
Department of Education have jointly issued a number of 
initiatives aimed at introducing transparency into the system, 
we must revisit these decisions in order to tweak, update, and 
ensure that these measures are helping our students make the 
most informed decisions possible.
    We must also work with the states to ensure that they are 
doing everything in their power to preserve, not eliminate, 
programs that enable families to afford college. State 
governments have played a vital role in the higher education 
triad since passage of the first Higher Education Act in 1965. 
Though we understand the difficult financial circumstances 
facing many of the states, balancing budgets on the backs of 
students and families is simply the wrong prescription for 
fixing these problems.
    As we look to reauthorize the Higher Education Act in the 
coming months, we must address these issues and many more with 
clear vision and an eye towards the future.
    I look forward to having a productive conversation with my 
colleagues and our distinguished panel. I yield back the 
balance of my time.
    [The statement of Mr. Bishop follows:]

   Prepared Statement of Hon. Timothy H. Bishop, a Representative in 
                  Congress From the State of New York

    Thank you very much, Chairwoman Foxx.
    First of all, I'd like to thank our distinguished panel for being 
here with us this morning. I look forward to hearing your testimony and 
exploring in detail the many suggestions that you will offer us today.
    I would also like to take a second to thank the majority for 
holding this hearing. Although our two sides may differ on many of the 
policies contained within HEA reauthorization, the majority should be 
commended for its willingness to consistently invite nonpartisan 
experts on higher education to testify on reauthorization.
    However, I would be remiss if I did not also briefly discuss the 
impact of the FY2014 Republican budget on higher education. By 
eliminating the mandatory funding elements of the Pell Grants program, 
shifting Pell to a program funded entirely by discretionary 
appropriations, rolling back Pell eligibility expansions for low-income 
students, freezing the maximum Pell Grant for 10 years, and allowing 
certain student loan interest rates to double on July 1, we must 
recognize that such a budget--were it ever to become law--would have a 
disproportionately negative impact on students.
    We have reached a critical point for the future of higher education 
in this nation. As we all know, college tuition continues to rise, 
state appropriations continue to fall, and our students are now 
responsible for shouldering more of the burden than ever before. With 
student loan debt recently surpassing $1 trillion and sequestration 
inflicting significant cuts to programs like Federal Work-Study and 
SEOG, it is imperative that Congress promotes sustainable policies that 
encourage college access, affordability, and completion for our 
students.
    Enrolling in college is a lifetime investment. Studies universally 
indicate that a college graduate will earn significantly more over his 
or her lifetime than a non-graduate. While national unemployment rates 
for those with a bachelor's degree or higher currently sits at 3.8 
percent, for those with a high school degree or lower the national 
unemployment rate stands at 8.5 percent.
    At the same time, a study released by Georgetown University notes 
that the gap between the supply of workers with postsecondary 
credentials and available job openings requiring those credentials may 
be as wide as 3 million by 2018.
    And yet, research shows that the United States has fallen from 
first to sixteenth in the world in the percentage of 25-to-34 year olds 
with a college degree. In fact, the United States is the only country 
in the world in which degree attainment levels for those just entering 
the labor market--at 39 percent--is actually lower than those preparing 
to retire and leave the labor market--at 41 percent. In order to 
maintain global competitiveness and our perch as the world's top 
economy, we must continue to support our students by investing in 
federal financial aid programs that encourage college access and 
affordability.
    We must do a better job of providing students and their families 
with clear, useful, and timely information about college costs and 
financial aid options to help them make the right decision. Given the 
variety of ways students attend college and the growing reliance on 
federal financial aid dollars, the federal government is in a unique 
position to help collect such information so that students and their 
families can make a direct comparison across institutions.
    Although Congress, the Obama Administration, and the Department of 
Education have jointly issued a number of initiatives aimed at 
introducing transparency into the system, we must revisit these 
decisions in order to tweak, update, and ensure that these measures are 
helping our students make the most informed decisions possible.
    We must also work with the States to ensure that they are doing 
everything in their power to preserve--not eliminate--programs that 
enable families to afford college. State governments have played a 
vital role in the higher education `triad' since passage of the first 
Higher Education Act in 1965. Though we understand the difficult 
financial circumstances facing many of the states, balancing budgets on 
the backs of students and their families is simply the wrong 
prescription for fixing these problems.
    As we look to reauthorize the Higher Education Act in the coming 
months, we must address these issues and many more with clear vision 
and an eye towards the future. I look forward to having a productive 
conversation with my colleagues and our distinguished panel and I yield 
back the balance of my time.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Bishop.
    Pursuant to committee rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record.
    And without objection, the hearing record will remain open 
for 14 days to allow statements, questions for the record, and 
other extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Before introducing our panel of witnesses, I would like to 
recognize the fact that we have in the audience with us today 
seven parliamentarians from the country of Turkey, the Republic 
of Turkey, and we are very pleased to have them with us.
    They are accompanied by some other folks. They are visiting 
the United States, spending several days here in the Congress 
observing our work, and I am very honored that they chose to 
attend our hearing today.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. Dr. Donald Heller is Dean of the College of 
Education and a professor in the Department of Education 
Administration at Michigan State University.
    Prior to his appointment in January 2012, he was director 
of the Center for the Study of Higher Education and professor 
of education and senior scientist at the Pennsylvania State 
University.
    Mr. Alex Garrido is currently a student attending Keiser 
University in Miami where he is studying criminal justice. 
Prior to enrolling at Kaiser, he served as a combat engineer in 
the Navy.
    Dr. Nicole Hurd is the founder and executive director of 
the National College Advising Corps, a consortium of 18 partner 
colleges and universities in 14 states that higher recent 
college graduates to serve as college advisors.
    Mr. Travis Reindl oversees the Education Division's 
postsecondary education work area at the National Governors 
Association Center for Best Practices. He also led the 2010-
2011 NGA Chair's Initiative Complete to Compete, which focused 
on increasing college completion and productivity.
    Before I recognize you individually to provide your 
testimony, let me briefly explain our lighting system. You will 
have 5 minutes to present your testimony.
    When you begin, the light in front of you will turn green. 
When 1 minute is left, the light will turn yellow. When your 
time has expired, the light will turn red.
    At that point, I ask that you wrap up your remarks as best 
as you are able. After you have testified, members will each 
have 5 minutes to ask questions of the panel.
    I now recognize Dr. Donald Heller for 5 minutes.

            STATEMENT OF DR. DONALD E. HELLER, DEAN,
        COLLEGE OF EDUCATION, MICHIGAN STATE UNIVERSITY

    Mr. Heller. Chairwoman Foxx, Ranking Member Bishop, and 
members of the subcommittee, thank you for the opportunity to 
address you on today.
    I am speaking as a researcher on college access and not as 
a representative of Michigan State University this morning.
    As the price of college has risen over the last three 
decades, there has been much discussion of ways to ensure that 
students and their families have adequate information about the 
costs, programs, and benefits associated with attending 
college.
    We know that there are positive returns to investments in 
higher education, the college wage premium, the additional 
amount that someone earns after earning a bachelor's degree as 
compared to those with only a high school diploma, has more 
than doubled in the last 35 years.
    In order for students to make appropriate choices about 
attending college however they need good information about 
postsecondary educational options. In thinking about ways to do 
this, it is important to realize a few key facts about where 
students attend college in our nation.
    Fifty-four percent of first-year students attend community 
colleges and the great majority of these are in their local 
regions. Another 14 percent are enrolled in proprietary schools 
where again, they are most likely attending one in their local 
communities. These proportions are even greater for adult 
students.
    Over two thirds of first-year students are enrolled in an 
institution within 25 miles of home, and 81 percent are 
enrolled within 50 miles of their home.
    What these data tell us is that the majority of perspective 
college enrollees are looking at a fairly limited choice set. 
Those institutions that are very close to home and primarily 
community colleges and proprietary institutions.
    For individuals who are thinking about attending college, 
there are a number of sources of information. One of the most 
important is a student's family and peers. Research has shown 
that these are critical data sources particularly for students 
in the earlier parts of the college search process.
    There is much information available from colleges and 
universities themselves including admissions and financial aid 
websites, view books, college costs and financial aid 
calculators.
    Like any information provided by an organization selling a 
good or service, however, it is only fair that the information 
be consumed with a warning of caveat emptor.
    While I do not mean to imply that colleges and universities 
may intentionally mislead potential students, it is advisable 
to keep in mind that information is generally provided to 
maximize institutional rather than student interests.
    For students enrolled in high school guidance counselors 
are a valuable and critical resource. However, access to good 
college counseling in high schools is very inequitably 
distributed with schools serving high proportions of first-
generation and poorer students least likely to provide access 
to good college counseling.
    The Department of Education has made a number of efforts 
some under congressional mandate to provide more consumer 
friendly information to students as Dr. Foxx mentioned. The 
IPEDS college navigator provides a single website with 
information about things like prices, enrollments, graduation 
rates, financial aid, etc.
    There are also a number of federal programs, most notably 
the TRIO and GEAR-UP programs, which have as an important part 
of their mission, providing information about colleges to their 
participants.
    There are also many private sources of information about 
college including college guidebooks and rankings. Other 
private sources include not-for-profit organizations devoted to 
improving college access such as the National College Access 
Network and its many state affiliates.
    There are also private college counselors who charge hourly 
or flat rate fees to parents to help their children choose 
colleges and prepare applications. These fees may run from a 
few hundred dollars to as much as $14,000 for a 4-day 
application boot camp. The states are also a source of 
information, but I will defer to Mr. Reindl on that topic.
    The Internet has greatly helped to democratize access to 
information. What has not done as well has been to help people 
access the right information at the right time to meet their 
needs.
    Let me turn now to a few recommendations to enhance higher 
education transparency. First, there is no substitute for 
access to knowledgeable information that could be tailored to 
the needs of individual students.
    While local school districts and states have the main 
responsibility for funding high schools, the federal government 
could consider a highly targeted program to place more 
qualified college counselors in schools serving lower income 
students.
    Second, the Department of Education can improve the 
information about college and financial aid that it provides. 
Just as the Institute of Education Sciences' What Works 
Clearinghouse provides access to educators on proven 
educational programs and practices, the department could 
develop a similar website on college access.
    Third, Congress should continue to support the existing 
Department of Ed programs, such as TRIO and GEAR-UP that 
provide information to students about college and how to pay 
for it.
    Fourth, there are some innovative experiments being 
conducted by researchers that are providing high-quality, low-
cost information about college to students who desperately need 
it. One I highlighted in my written testimony is the Expanding 
College Opportunities Project.
    I would also like to add one cautionary note. There has 
been much focus recently on collecting better information about 
the salaries earned by graduates of specific colleges or in 
specific majors.
    While there are important vocational training components of 
many postsecondary programs, a college degree confers returns 
to the individual and society that cannot be valued only by the 
simple measurement of an individual's wages in her first job 
after college.
    I will close by thanking you once again for the opportunity 
to address you today. I would be happy to take your questions 
after the remaining witnesses have testified.
    [The statement of Mr. Heller follows:]

Prepared Statement of Dr. Donald E. Heller, Dean, College of Education, 
              Michigan State University, East Lansing, MI

    Chairwoman Foxx, Ranking Member Hinojosa, and Members of the 
Subcommittee: Thank you for the opportunity to address you on today. I 
would like to offer a special greeting to Representative Walberg, from 
Michigan's 7th District, right next to our campus, as well as 
Representative Thompson, with whom I have met in the past and who 
represents the district of my former employer, Pennsylvania State 
University. I come to you today as a researcher having conducted 
studies on college admissions and access for over fifteen years, and 
not as a representative of Michigan State University.
    As the price of college has risen over the last three decades, 
there has been much discussion of ways to ensure that students and 
their families have adequate information about the costs, programs, and 
benefits associated with attending postsecondary education. We are 
reasonably assured of the benefits of attending college; much has been 
written of the lifetime returns earned by those with a college degree 
as compared to those who enter the labor market with only a high school 
diploma. One example, from a recent book of mine, is shown in figure 1 
on the next page. In 2008, the median income of men holding bachelor's 
degrees was 105 percent greater than men holding only a high school 
diploma, and 204 percent greater than high school dropouts. More 
importantly, this college wage premium--the additional amount, on 
average, that someone with a bachelor's degree earns over those with 
only a high school diploma or less education--has more than doubled 
over the last 35 years. This increasing college wage premium is the 
primary reason that most analysts describe to explain why college 
enrollments have continued to rise, even in the face of price increases 
that have well exceeded inflation over the last three decades.
    It is important to note that earning a bachelor's degree is not the 
only path toward achieving what we often have called a ``middle class 
lifestyle.'' However, it is clear that fewer and fewer jobs in our 
economy today, as well as into the future, will allow people to earn a 
decent wage if they don't have some form of postsecondary training.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is clear that it is a national imperative to ensure that we have 
good information available about postsecondary educational options for 
students and their families. In thinking about ways to do this, it is 
important to realize a few key facts about where students attend 
college (all data are the author's calculations from the U.S. 
Department of Education's National Postsecondary Student Aid Study of 
2008):
    <bullet> 54 percent of all first-year students enrolling in 
postsecondary educational institutions attend community colleges, and 
the great majority of these are attending community colleges in their 
local regions. Another 14 percent of first-year students are enrolled 
in proprietary institutions, where again, they are most likely 
attending one in their local communities.
    <bullet> This proportion is even greater for independent students, 
those generally over the age of 24. Fifty-nine percent of these 
students attend community colleges, and another 22 percent attend 
proprietary institutions.
    <bullet> Over two-thirds of all first-year college students are 
enrolled in an institution within 25 miles of their home, and 81 
percent are enrolled within fifty miles of their home. Again, these 
proportions are even greater for adults students--three-quarters and 90 
percent, respectively.
    What these data tell us is that the vast majority of prospective 
college enrollees, both traditional-aged students as well as adults 
returning to college for the first-time, are looking at a fairly 
limited choice set: those institutions that are very close to home, and 
primarily community colleges and proprietary institutions.
    This is not to say that given better information about 
postsecondary educational choices, more students would not choose to 
move farther from home to attend college, or more students could not be 
persuaded that a four-year public or not-for-profit institution would 
be a better option for them. But the reality is that for many students 
attending college for the first time, there are a very small number of 
the over 7,200 accredited, Title IV-participating institutions, that 
these students are considering.
    For high school students or adults who are thinking about attending 
college, there are a number of sources of information available:
    <bullet> Parents, families, and peers: One of the most important 
sources of information about college is a student's parents (if a 
traditional-aged student), families, and peers. Research has shown that 
these are critical data sources, particularly for students in the 
earlier parts of the college search process, i.e., those in the early 
high school years.\1\ Students later in high school seek out and find 
additional sources of information, but family and friends are critical 
in the earlier stages.
---------------------------------------------------------------------------
    \1\ Bell, A. D., Rowan-Kenyon, H. T., & Perna, L. W. (2009). 
College Knowledge of 9th and 11th Grade Students: Variation by School 
and State Context. The Journal of Higher Education, 80(6), 663-685.
---------------------------------------------------------------------------
    <bullet> The quantity, quality and reliability of information about 
college available from family and friends varies greatly by such 
characteristics as income and parental education.
    <bullet> Colleges and universities: There is lots of information 
from colleges and universities themselves, including admissions and 
financial aid websites, view books, and college cost and financial aid 
calculators. Most college also provide tours to prospective students 
who visit the campus, and send representatives to college fairs out in 
the community. Like any information provided by an organization selling 
a good or service, however, it is only fair that the information be 
consumed with the warning of caveat emptor. While I do not mean to 
imply that colleges and universities may intentionally mislead 
potential students, it is advisable to keep in mind that information is 
generally provided to maximize institutional, rather than student, 
interests.
    Many colleges, including my own, offer outreach programs that bring 
high school students to their campuses to give them an intensive 
experience of what it is like to be on a college campus, provide 
academic and test prep tutoring, and the like. These experiences may 
range from the relatively short-term (such as a weekend) to as long as 
four or more weeks in the summer.
    <bullet> Guidance counselors: For students still enrolled in high 
school, guidance counselors (as well as teachers and other school 
staff) can be a valuable resource. However, access to these kinds of 
resources--particularly guidance counselors, who are most likely to 
have the best and most up-to-date information about attending college--
is very inequitably distributed. A study conducted for the National 
Association for College Admission Counseling found that high school 
guidance counselors can be critical in improving college access for 
racial minority and low socioeconomic status students, but these are 
exactly the populations who are likely to have the least access to good 
college counseling.\2\
---------------------------------------------------------------------------
    \2\ McDonough, P. M. (2006). Counseling and College Counseling in 
America's High Schools. Arlington, VA: National Association for College 
Admission Counseling.
---------------------------------------------------------------------------
    <bullet> Federal government: In recent years, the Department of 
Education has made a number of efforts, some under Congressional 
mandate, to provide more consumer-friendly information to students. The 
IPEDS College Navigator, for example, provides a single website with 
basic data about every Title IV-participating institution in the 
country. This includes things like prices, enrollments, programs 
offered, financial aid available, and graduation rates. The Department 
has also worked with colleges to help them implement Net Price 
Calculators, mandated by Congress in the Higher Education Opportunity 
Act of 2008.
    <bullet> There are also a number of federal programs, most notably 
the TRIO and GEAR-UP programs, which have as an important part of their 
mission providing information about colleges to their participants.
    <bullet> Private sources: There are also many private sources of 
information about college. This includes:
    <bullet> Publications, such as college guidebooks written by 
individuals or organizations, or rankings published by such 
organizations as U.S. News & World Reports, Barron's, and The Princeton 
Review. This includes numerous books providing advice on how to pay for 
college. A simple search on Amazon for ``college guides'' returns over 
3,000 entries.
    <bullet> Information provided in written and other forms by not-
for-profit organizations devoted to improving college access, most 
prominently the National College Access Network and its many state 
affiliates around the country.
    <bullet> Private college counselors, who charge hourly or flat rate 
fees to parents to help their children choose colleges. These fees may 
run from a few hundred dollars to as much as $14,000 for a four day 
``Application Boot Camp.'' \3\ As with access to guidance counselors in 
high schools, access to private college counseling is correlated with 
the income of the student's parents.
---------------------------------------------------------------------------
    \3\ Hernandez College Consulting. (2013). ``Application Boot 
Camp.'' Retrieved April 21, 2013, from http://
www.hernandezcollegeconsulting.com/application-bootcamp/
---------------------------------------------------------------------------
    <bullet> States: Information from the 50 states and the District of 
Columbia, who control and provide funding to public colleges and 
universities that enroll 72 percent of all college students. I will not 
say much else about this, however, as I know that Mr. Reindl will be 
discussing this topic.
    I would argue that there is no issue with the volume of information 
available about college. As mentioned earlier, there are numerous 
guidebooks, websites, magazines, and other sources that are often 
freely accessible and available to most all prospective college 
students. As has been said by many, the Internet has greatly helped to 
democratize access to information. What it has not done as 
successfully, however, has been to help people get access to the right 
information to meet their needs. And it is critical that we help 
prospective students to get the right information in their hands at the 
necessary times.
    Having provided you with this overview of the availability of 
information about college and how to fund it, let me turn now to a few 
recommendations regarding how we can improve the this information.
    Some of these are actions that the federal government can assist 
with; others are better suited for other levels of government or 
private sector actors.
    First, there is no adequate substitution for having access to 
objective, unbiased, and knowledgeable information that can be tailored 
to the needs of individual students. A couple of generations ago, when 
we had a much smaller proportion of high school students who 
transitioned into college (and adult students were few and far between 
in comparison to today), this role was fulfilled by the high school 
guidance counselor. Schools in upper-middle and upper-income 
communities were the ones sending a high percentage of students onto 
college, and these schools provided adequate access to college 
counseling.
    Today, we have a higher proportion of students who aspire to attend 
college, and they are distributed among a broader set of high schools 
than in the past. However, we have not provided access to good college 
counseling in the schools to many of these students who historically 
have been underrepresented in higher education, those predominantly 
from lower-income and racial minority families. Because these students 
tend to be clustered in lower-resourced schools, they are not provided 
with the same level of college counseling afforded to students from 
wealthier families. And for most of them, access to private college 
counseling--including the $14,000 ``Application Boot Camp'' mentioned 
earlier--is well beyond their means.
    While local school districts and states have the primary 
responsibility for funding and operating high schools, the federal 
government could consider a highly-targeted, federally-funded program 
to place more qualified college counselors in schools serving lower-
income students. A complimentary approach would be for the federal 
government to partner with non-profits, such as the National College 
Advising Corps (NCAC), a largely privately-funded organization which 
works with colleges and universities to place recent college graduates 
into high schools serving high proportions of low-income and first-
generation students. The NCAC representatives work one-on-one with 
these high school students to supplement guidance counselors who are 
often overwhelmed with high student-to-counselor ratios and many other 
demanding responsibilities.
    Students in predominantly low-income schools who have had been able 
to gain access to good college counseling from an individual report how 
important it has been to them. In one study, respondents described this 
person as being ``almost `savior-like' '' (p. 674) in helping them gain 
good information about college.\4\
---------------------------------------------------------------------------
    \4\ Bell, A. D., Rowan-Kenyon, H. T., & Perna, L. W. (2009). 
College Knowledge of 9th and 11th Grade Students: Variation by School 
and State Context. The Journal of Higher Education, 80(6), 663-685.
---------------------------------------------------------------------------
    Second, the Department of Education can also continue to improve 
the information about college and financial aid that it provides to 
students and families. While as I noted earlier the Department has made 
great strides in recent years with its websites and other sources of 
data, the information that is provided is still focused on providing 
facts and figures. If a student wants to know what majors are offered 
at a particular institution, or what the tuition and fees and net price 
are, or what the six-year graduation rate is, the IPEDS College 
Navigator is a good place to go. But it is not a place to visit to help 
students understand if a college is the right ``fit'' for them. I am 
not suggesting that the Department get into the college guide book 
business, but it could create a portal to objective information that 
could help students find a good college. Just as the Institute of 
Education Sciences' What Works Clearinghouse provides access to 
educators on proven educational programs, products, practices, and 
policies, a similar website on college access could provide pointers to 
good, objective information about choosing colleges.
    Third, Congress should continue to support the existing Department 
of Education programs, such as the TRIO and GEAR-UP programs, that have 
as part of their design providing information to students about 
attending college and how to pay for it.
    Fourth, school districts and state governments need to step forward 
and ensure that high school students and their families are being 
provided access to high quality information about attending college and 
paying for it. One way of doing this is to ensure that schools are 
adequately funded so that students have access to good advice from 
school personnel. As described earlier, there is no good substitute for 
this level of personalized attention. Schools should be encouraged to 
work with private organizations, including local businesses and non-
profits, that have as their mission getting more students enrolling in 
postsecondary education.
    As I described earlier, the great majority of students are 
interested in attending college very close to their local communities, 
and for many of these students, the local communities can offer at 
least one postsecondary option that is the right price, offers the 
program they want, and would be that proverbial ``good fit.'' Thus, 
providing good information about these local options should not be as 
daunting a task as trying to help students choose from among the over 
7,000 accredited institutions across the country.
    Fifth, there are some innovative experiments being conducted by 
researchers that attempt to target information at those students who 
historically have been underrepresented in higher education and 
generally have poor access to good information about it. One I will 
highlight is the Expanding College Opportunities Project, being 
conducted by researchers Caroline Hoxby of Stanford University and 
Sarah Turner of the University of Virginia.\5\ This project has 
targeted high-achieving, low-income students, and provides them with 
very low-cost, highly-targeted information (via the mail and websites) 
about colleges, financial aid, and net prices. While the study is 
somewhat limited because the target population is those students who 
have relatively high levels of academic achievements, early results 
nevertheless show that the approach holds promise.
---------------------------------------------------------------------------
    \5\ Hoxby, C., & Turner, S. (2013). Expanding College Opportunities 
for High-Achieving, Low Income Students. Unpublished manuscript, 
Stanford University and the University of Virginia.
---------------------------------------------------------------------------
    I would also like to add one cautionary note. There has been much 
focus in the last year or two, particularly in some states, on 
collecting better information about the salaries earned by graduates of 
specific colleges and universities, including data on earnings by 
major. This issue has been framed not just as one of providing better 
information to prospective students, but also as one of institutional 
accountability. While this kind of information can be helpful, I think 
that it also can be used in a way that narrows the purpose of a 
postsecondary education. While there are important vocational training 
components of many postsecondary programs, a college education--whether 
it is one that leads to a bachelor's degree or not--confers returns to 
the individual and society that cannot be valued only by the simple 
measurement of an individual's wages in her first job after college. 
The true value of an education can only be seen five, 10, or even 20 
years after the education is experienced, and in ways well beyond the 
size of the paycheck earned by the recipient of that education.
    In summary, we have made some good strides on getting more 
information to students about college. These efforts have been 
accomplished by the federal government, states, local districts, and 
private organizations. But we still have a long way to go to improve on 
these efforts if we are going to ensure that all students have the 
right information at the right time and tailored to their needs.
    I will close by thanking you once again for the opportunity to 
address you today. I would be happy to take your questions after the 
remaining witnesses have testified.
                                 ______
                                 
    Chairwoman Foxx. Thank you very much.
    Mr. Garrido, you are recognized for 5 minutes.

              STATEMENT OF ALEX GARRIDO, STUDENT,
                       KEISER UNIVERSITY

    Mr. Garrido. Good morning, Chairwoman Foxx and committee 
members. It is an honor to have been invited to testify before 
the Subcommittee on Higher Education and Workforce Training to 
share my story about college experience.
    As you said earlier, I was a military member from 2001 to 
2006 as a Sea Bee which is a combat engineer, civil engineer.
    During my time in service I went to countries such as 
Latvia, Lithuania, Estonia, Spain, Guam, Iraq, and Kuwait. I 
was medically discharged for my injuries sustained while in 
service and came back to Miami, where originally, where I was 
from.
    I found a job as an FAA--at a FAA repair station, which was 
as a jet engine mechanic. Unfortunately, as the economy 
plummeted, I found myself without a job in 2008. Unable to 
readily find work, I chose to enroll in college so I could 
continue providing for my family. I began to search online for 
colleges and degree programs which were of interest to me.
    While doing my research, I looked at the Veterans' Affairs 
website and I found out about the Post 9/11 benefits were 
available and could cover housing stipend, books, and tuition. 
This helped me with my decision and I knew it was time to go 
back to school.
    Although the VA was not involved with my search for 
schools, they did help me however, with the necessary forms for 
my education funding.
    Initially, I looked online at different schools in South 
Florida and I felt best--what would best meet my needs. I was 
looking for schools that had degree programs, which could be 
completed quickly, would not require a long commute to school, 
and that the student body that was serious about learning.
    The main information I was able to obtain online in these 
searches was what degree programs were often offered as well as 
the college locations. I was also able to use the website to 
get a feel for the schedule and plans for the various degree 
programs.
    For me, schedule was important seeing as how I was already 
in my thirties and had been out of school for a long time so 
the idea of focusing on three to four classes at once was a 
daunting task.
    After selecting the schools I was interested in, I began to 
visit the campuses and speak to admissions advisors. I wanted 
to get a feel for the environment of each individual school and 
then this had gauge slowly--from my--I couldn't gauge this from 
the websites.
    The first school I visited had an admissions representative 
who spoke quickly and could not keep my attention. This did not 
take the time--she didn't take the time to answer my questions 
and I was--she was forcing contracts my way.
    Another school I visited, I was informed I would need to 
take general education courses, which would have about thirty 
students per class.
    Class size was an important issue so I began speaking to 
my--with friends; and they informed me that classes would 
normally have between 50-100 students. Having been out of 
school for so many years I wanted more individualized attention 
so I ruled those colleges out.
    When I discussed my options with my girlfriend, she 
encouraged me to come up with a game plan. I went to see her 
friends at Keiser University where the admissions counselor, 
she knew. Arriving, he gave me a tour of the college, explained 
in detail the degree programs offered, along with taking and 
what to expect.
    After he got to know me, and the fact that I was a veteran, 
he took me to financial aid to see about my veteran's benefits. 
I was not able--aware of any navigation tools from the 
Department of Education, which was why my decision was based 
mostly on my visit and the support of my friends and family.
    Unlike the experience to another college where I felt I was 
being pressured into signing paperwork and enrolling, this was 
not the case at Keiser because of the experience during my 
first visit, I returned a few days after knowing that I was 
going to--expected to take a test and then later to see if I 
was going to be admitted.
    Keiser did everything they could to fund my education in 
conjunction with benefits from the VA and also the Yellow 
Ribbon Scholarship. Then Keiser matched whatever the Yellow 
Ribbon would offer.
    I filled out the Free Application for Federal Student Aid, 
which is the FAFSA and obtained a Pell Grant. I was also 
eventually offered an academic scholarship because of my grades 
and a military scholarship for being a veteran.
    I have been at Keiser University since 2009 and I likely--
and I like everything about the school from small classes, 
everyone being required to be in professional attire, and the 
fact that Keiser is a Level 6 accredited, a Level 6 SACS 
accredited school offering doctoral degrees.
    I am a firm believer in that the environment plays a role 
in the attitude of the students. Teachers are easily accessible 
whether you meet with them on campus or by email them after 
hours.
    My associate--I earned my associate's degree in 2011 with a 
GPA of 3.6. I would never imagine that I would have graduated 
with such a high GPA with my associate's.
    After graduating with my associate's, I continued my 
education my bachelor's, and I am proud to say I am going to 
graduate in September.
    For me, choosing a college was about the academics needed 
to come, and my decision was not lightly. I considered the 
graduation rates, the number of students in my class, and the 
length and degree of the program because my funding would not 
last indefinitely.
    I chose a career of criminal justice, and Madam Chair and 
members, thank you for the opportunity to speaking today about 
my experience and hoping the decision of transparency will help 
things a little easier for people like me, people with busy 
lives, children, and those who are veterans. I look forward to 
any questions that you might have for me.
    Thank you.
    [The statement of Mr. Garrido follows:]

     Prepared Statement of Alex Garrido, Student, Keiser University

    Good morning, Chairwoman Foxx and Committee Members. It is an honor 
to have been invited to testify before the Subcommittee on Higher 
Education and Workforce Training to share my story about my college 
experience.
    Let me begin by sharing a little of my history. I served in the 
United States Navy from 2001 to 2006 and I was a Sea Bee, which is a 
civil engineer. During my time in the service I went to countries such 
as Latvia, Lithuania, Estonia, Spain, Guam, Iraq, and Kuwait. I was 
medically discharged from injuries sustained while in service and came 
back to Miami, where I was originally from. I found a job at a FAA jet 
engine repair station. Unfortunately, as the economy plummeted, I found 
myself without a job in 2008. Unable to readily find work, I chose to 
enroll in college so that I could continue providing for my family. I 
began to search online for colleges and degree programs, which were of 
interest to me.
    While doing my research, I looked at the Veterans' Affairs website 
and I found out that Post 9/11 benefits were available and could cover 
a housing stipend, books, and tuition. This helped with my decision and 
I knew it was time to go back to school. Although the VA was not 
involved in my search for schools, they did help me fill out the 
necessary forms to have my education funded.
    Initially, I looked online at different schools in South Florida I 
felt would best meet my needs. I was looking for a school that had 
degree programs, which could be completed quickly, would not require a 
long commute to the school, had a student body that was serious about 
learning, and classes that would interest me. The main information I 
was able to obtain online in these searches was what degree programs 
were offered as well as the college locations. However, I was also able 
to use the websites to get a feel for the schedules and plans for the 
various degree programs.
    For me, the schedule was important seeing as how I was already in 
my thirties and had been out of school for a long time so the idea of 
focusing on three or four classes at once was daunting. After selecting 
the schools I was interested in, I began to visit the campuses and 
speak to admissions advisors. I wanted to get a feel for the 
environments of each individual school and this is hard to gauge solely 
from school websites. The first school I visited had an admissions 
representative who spoke too quickly and could not keep my attention. 
She did not take the time to answer my questions and was forcing 
contracts my way. At another school I visited I was informed I would 
need to take general education courses, which would have about thirty 
students per class.
    Class size was an important issue so I began speaking with friends; 
I was informed classes at a number of my other choices would have 
anywhere from 50-100 students. Having been out of school for so many 
years I knew I wanted more individualized attention so I ruled out 
those colleges. When I discussed my options with my girlfriend, she 
encouraged me to come up with a game plan and move forward with my 
education. I went to see a friend of hers at Keiser University who was 
an admissions counselor. After arriving, he gave me a tour of the 
college, explained in detail the degree programs offered, how long they 
would take, and what to expect. After he got to know me, and the fact 
that I was a veteran, he then took me to financial aid to see about my 
veteran's benefits. I was not aware of any navigation tools from the 
Department of Education which is why my decision was based mostly on my 
visits and the support of my friends and family.
    Unlike an experience at another college where I felt I was being 
pressured into signing paperwork and enrolling, this was not the case 
at Keiser. Because of the experience during my first visit, I returned 
a few days later to take my entrance exam and I already knew what to 
expect from the school if I was admitted. Keiser did everything they 
could to help fund my education in conjunction with benefits offered by 
the VA--the Yellow Ribbon Scholarship and a match by Keiser. I filled 
out the Free Application for Federal Student Aid (FAFSA) and obtained a 
Pell Grant. I was also eventually offered an academic scholarship 
because of my grades and a military scholarship for being a veteran.
    I have been at Keiser University since 2009 and I like everything 
about the school from the small classes, everyone being required to be 
in professional attire, and the fact that Keiser is a Level 6 SACS 
accredited school offering doctoral degrees. I am a firm believer that 
the environment plays a role in the attitude of the students. Teachers 
are easily accessible whether you meet with them on campus or email 
them after hours. I earned my Associate's degree in 2011 with a 3.6 GPA 
and would never have imagined I could graduate with such a high GPA. I 
immediately continued my education and went on to obtain my Bachelor's 
degree; I am happy to tell you I will graduate this coming September. 
The one class at a time structure allows me to absorb the information 
presented and with the way the information is continuously delivered 
over that month it helps me to retain what I have learned, having it 
become second nature. The University administration is always available 
to listen to the concerns of students and takes action on issues 
raised, which is greatly appreciated by the student body because it 
lets us know our voices are being heard and we are not just a number.
    For me, choosing a college was about my academic needs and I did 
not come by my decision lightly. I considered graduation rates, the 
number of students in my classes, the length of the degree program 
since I was receiving funding that would not last indefinitely, 
accreditation and placement rates. These things would all determine how 
successful I would be in my chosen career path of criminal justice; my 
goal from the start has been to be employable. I did not enroll with 
any unanswered questions and it has made the task of focusing on my 
studies that much easier.
    Madam Chair and Members, thank you again, for the opportunity to 
speak to you today about my experiences. My hope is that today's 
discussion about transparency helps make things a little easier for 
people like me--people with a busy life, children, those who work and 
veterans. I look forward to any questions you may have.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Mr. Garrido.
    I now recognize Dr. Nicole Hurd for 5 minutes.

  STATEMENT OF DR. NICOLE FARMER HURD, FOUNDER AND EXECUTIVE 
           DIRECTOR, NATIONAL COLLEGE ADVISING CORPS

    Ms. Hurd. Thank you for the honor of being here today.
    As the Founder and Chief Executive Officer of the National 
College Advising Corps, I am here representing 335 recent 
college graduates who are serving as college advisers to nearly 
117,000 students in 389 high schools across 14 states.
    Our program places these college graduates from our 18 
partner universities into low income underserved high schools 
to help students navigate the path to college and earn 
meaningful credentials.
    We are an evidence-based, data-driven, high-impact program 
that has seen an increase of 8 to 12 percent college 
matriculation rates in these schools. And this morning, I have 
to share with you that the Department of Education data shows 
is that we have helped 36,000 students file their FAFSA forms 
this fall--or this spring.
    We--our mission is simple. We are to help every student, 
every student find the right match and fit so they enroll in 
schools that serve them well.
    My testimony is from the vantage point of these near peer 
advisors. They spend every day working alongside our guidance 
counselors, teachers, and principles making sure our students 
take advantage of educational opportunities and are ready to 
compete in the global economy.
    There are real barriers for our high school students today; 
the gap between what they think they know and what they need to 
know. If you ask an eighth-grade class in this country how many 
of them want to go to college, every head will go up. But we 
lose them.
    We lose them in the process. They are unaware of fee 
waivers. They are unaware of Pell grants. They are unaware of 
the net price calculators. They do not know to look for 
graduation rates and they don't know how to make wise choices.
    In my home state of North Carolina and many of the other 
states represented here, 100 students will enroll in our public 
colleges and universities. Only 13 will graduate with a 2-year 
degree in 4 years, and only 29 will graduate with a 4-year--
from a 4-year institution within 8 years.
    We need to do better. There are real barriers. Our college 
guidance counselors--excuse me--our high school guidance 
counselor rate is way too high. The recommended ratio is 250 to 
1. In California, it is 810 to 1. In Texas, it is 711 to 1. And 
in Michigan, it is 660 to 1.
    Our job in the National College Advising Corps is to bring 
these near peer graduates into the schools to help those 
guidance counselors make sure that all of our students find a 
match and go to a school where they will succeed.
    But there are very simple barriers; the barriers that you 
can help us fix. Information barriers that are also preventing 
our students from enrolling and completing higher education. 
There are certain activities that all high school students 
need. They need to go on college visits. They know college is 
good, but they have no idea what a vocational school, a 
community college, or a 4-year school can offer them.
    They need financial literacy. They do not know the 
difference between a grant or a loan. They have sticker shock. 
They have no difference between what the sticker price of the 
University is versus their actual net cost that they will pay.
    And my most heartbreaking example I want to share with you 
this morning as a family who did not want to take out a loan 
and take support from the federal government because they were 
too proud and thought that that was aid that they did not want 
to take and so instead, they put their tuition on a 15 percent 
credit card not realizing a credit card is actually a loan.
    We have a lack of timeline in knowledge in our schools as 
well. We need timelines for all students, the 9th through 12th 
grade, and they need to be posted in every classroom, not just 
in the guidance office.
    The students need to know when to register, when to take 
the SAT and ACT, when to start their scholarship searches, when 
to fill out their FASFA, priority deadlines, these are all 
things that can be really, really big barriers and they are 
really small, but we need to knock them down.
    I cannot tell you how many students we advise that did not 
take their SAT or ACT in their junior year, did not see a list 
of courses they needed until 12th grade and therefore were not 
college and career ready and did not realize that you file 
financial aid forms and when you do is important.
    You all have done some amazing things to help us and I want 
to thank you for that. We ask you to have universal adoption of 
the Financial Aid Shopping Sheet. It is so important that our 
families see things apples to apples. In order to have 
graduation rates there, those make a huge difference.
    Think about what choice you can make when you can actually 
see a school's graduation rate, loan default rates, median 
borrowing, grants and scholarships, net costs so our families, 
especially our low income families can see what this is really 
going to cost them.
    As you know, reading financial award letters up until this 
time, you need an advanced degree for. They are full of jargon. 
They are hard to read, and they have been a barrier. Net price 
calculators; thank you for what you have done to make our 
higher institutions put those there. They need to be places 
where people can see them.
    They are so buried right now that our families, our 
students, our counselors, and our advisors can't get to them. 
And again, we need to explain to people the difference between 
the sticker price and the net price.
    And finally, I want to thank you for what you have done 
with college navigator and all of the other things that are 
coming up to help people with families--and their families 
navigate the college process.
    I will say we still worry about how much predatory and 
wrong information is out on the Internet. People should not 
have to pay to fill out their FAFSA. People should not have to 
pay to get information from public domains.
    So my final comment is just to thank you all for this and 
again, on behalf of the 335 recent college graduates all who 
are part of this amazing advising corps, all who are part of 
major universities, I want to thank you. Every student in this 
country deserves to fulfill their potential through education 
and this committee is leading the way. Thank you.
    [The statement of Ms. Hurd follows:]

  Prepared Statement of Dr. Nicole Farmer Hurd, Founder and Executive 
               Director, National College Advising Corps

    Chairwoman Foxx, Representative Hinojosa, and Members, thank you 
for the honor of providing this testimony to your committee.
    As the Founder and CEO of the National College Advising Corps, I 
represent 335 recent college graduates who are serving as college 
advisers to nearly 117,000 students in 389 high schools across 14 
states. Our program places these college graduates from 18 partner 
universities into low income and underserved high schools to help 
students navigate the path to college and earn meaningful credentials.
    Our partner universities, some from your states, schools such as 
the University of North Carolina at Chapel Hill, the University of 
Georgia, the University of Michigan and Michigan State University, New 
York University, the University of Virginia, Franklin & Marshall 
College, Texas A&M, and Cal, Berkeley, are so committed to ensuring all 
of our students are college and career ready and have a meaningful 
postsecondary plan that they join us--with their dollars and talents--
in placing their recent graduates in high schools. My testimony is from 
the vantage of these near peer advisers who spend every day, alongside 
guidance counselors, teachers, and principals, making sure our students 
take advantage of educational opportunities and are ready to compete in 
the global economy.
    There are real barriers for our high school students today. There 
is a gap between what students think they know and what they need to 
know. If you ask an 8th grade class how many of them want to go to 
college, 100% of the hands will go up--and yet as the years go by--we 
lose these students. They do not understand financial aid or what 
classes they need to take. They are unaware of fee waivers, Pell 
grants, and net price calculators. They do not know to look for 
graduation rates and how to make wise choices, so in North Carolina, 
and many of the other states represented here--100 students will enroll 
in our public colleges and universities, only 13 will graduate with a 2 
year degree within 4 years and only 29 will graduate from a 4 year 
institution within 8 years (http://www.completecollege.org/docs/North--
Carolina--Feb28.pdf).
    There are structural barriers that prevent our student for 
achieving their full potential through education--our high school 
counselor to student ratio is too high. The America School Counselors' 
Association recommends a ratio of 250:1, but recent Department of 
Education data shows the national average is 459:1--in California it is 
810:1, in Texas it is 711:1, and in Michigan it is 660:1.
    The vast majority of our Education Schools which train our 
counselors, teachers, and school leadership do not include college and 
financial aid counseling in the curriculum. There is not enough human 
capital to serve our students well.
    The National College Advising Corps is helping to address this 
human capital issue by placing near peer advisers in our partner high 
school to work alongside our counselors and teachers and help make 
college and career dreams become reality.
    And yet there are simple barriers--information barriers--that are 
also preventing our students from enrolling and completing higher 
education. They are certain activities that all high school students 
need in their schools.
College Visits
    Students think they know what college is, but many have never been 
to a campus. They do not understand how higher education works and may 
not see how they could be successful in college until they see it with 
their own eyes--research shows if they actually visit a college campus, 
their chances of matriculating increase.
Financial Literacy
    They think they know how much college costs, but we have not 
educated many of them or their families on financial literacy. They do 
not know the difference between a grant and a loan. They do not know 
the difference between the college cost and the net price. My most 
heartbreaking example is a family, who did not want to take out a loan 
due to pride--refused their government backed aid--and instead put the 
tuition on a credit card with a 15% interest rate--not realizing a 
credit card is a loan.
Lack of a Timeline and College Information throughout the School
    One of the most effective things we have seen is enhancing a 
school's college-going culture. In one low-performing school in North 
Carolina, our adviser changed the signs on the all the classroom 
doors--instead of reading ``Mrs. Smith, History or Mr. Jones, Math'', 
they read ``Mrs. Smith, History, the UT Austin or Mr. Jones Math, the 
University of Georgia.'' The principal called me to say he had never 
seen the aspirations and the conversation in a school change so 
quickly. These students thought they did not know anyone who went to 
college or anyone to ask for advice when the reality is they were 
surrounded by college graduates every day. We now do this across the 
country and refer to it as our ``Diploma Doors'' campaign.
    Timelines for all students--from 9-12th grades--need to be posted 
in every classroom, not just the in the guidance office. Students need 
to know when to register and take the SAT or ACT exams, when to start 
scholarship searches, when to fill out to the FAFSA, and priority 
deadlines for applications. These seem like small steps, but I cannot 
tell you how many students we advise who did not take the SAT/ACT in 
their junior year, did not see a list of courses needed for college 
until 12th grade and then had the shock to learn that they are not 
college ready, did not realize that when you file your financial aid 
forms is of the utmost importance.
    And there are real barriers that can be knocked down by the work 
this Committee is doing:
    Universal adoption of the Financial Aid Shopping Sheet--This 
document is a game changer for our students. There are many key areas--
graduation rate, loan default rate, median borrowing, grants and 
scholarships, net costs, options to pay net costs that this document 
provides in a clear and concise format. As you may know, reading 
financial aid award letters from many of our colleges and universities 
requires an advanced degree. They are full of jargon, hard to read, and 
do not allow consumers to make wise choices. We are excited that 600 
college and universities have adopted the Sheet. Every institution 
should use this form--for the first time a student can compare apples 
to apples--they can look at their options and see real graduation 
rates, real net costs, and what the investment in their education will 
cost. Our college and universities need to honor this investment by 
providing clear information in this accessible form.
    Net price calculators--While we have made great advances in helping 
students and families understand net price vs. college costs, the 
sticker shock of the price of education is still discouraging too many 
of our students, especially our low-income students from pursuing 
higher education. A Century Foundation study found that at the most 
selective 146 colleges and universities, 74% of students come from the 
wealthiest socioeconomic quarter of the population, but just 3% from 
the poorest quarter. Yet the graduation rates at the most selective 
institutions are higher and these schools provide substantial aid. Our 
low income students do not realize they can afford to go to these 
institutions. And while it is great that net price calculators are now 
required on college websites, many of buried them deep within the 
content. The calculator needs to be where prospective students and 
families can find it.
    College information--in addition to College Navigator, there are 
many websites from credible sources that are assisting students and 
families with making wise choices. The College Board's Big Future site, 
https://bigfuture.collegeboard.org, the Chronicle of Higher Education's 
College Reality Check, launched this week, http://
collegerealitycheck.com/, and the Administration's launch of the 
College Scorecard have made comparing college and accessing important 
data points a reality. Wage data is becoming another way to help 
empower students to make wise choices with sites such as College 
Measures that shows earnings by college and major in four states: 
Arkansas, Colorado, Tennessee, and Virginia. http://
www.collegemeasures.org/ Our concern is the level of misinformation 
still available on the web. Students and families need to have credible 
information and fall prey to sites that charge them for access to 
information and forms that are in the public domain.
    My final comment goes back to the human capital. As I mentioned in 
the opening, I represent 335 recent college graduates who are working 
daily to ensure our students have the information they need to access 
and persist in higher education. We do this work with great partners--
high schools, non-profits, the National College Access Network, and 
other support networks. What makes our model unique is that higher 
education institutions help select, train, place, and pay for our 
advisers who serve in high schools. And they are not recruiting for the 
partner university, but rather for all forms of post-secondary 
education. I would encourage the committee to look at this engagement 
as a way to have higher education assist with our nation's college 
access and information barriers.
    Each university has admissions professionals, financial aid 
professionals, recent graduates and others who can assist our high 
schools in helping students navigate the path to college and careers. 
In a global economy, where more of citizens will need a college 
education to compete, we must create a seamless and collaborative 
education pipeline that includes higher education working with K-12, 
and that empowers our students. I am grateful for the leadership of 
this committee for their work to help our students navigate their post 
high schools plans and to fulfill their potential through education.
      attached: national college advising corps overview and data
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    Chairwoman Foxx. Thank you, Dr. Hurd.
    I will now recognize that Mr. Travis Reindl for 5 minutes.

  STATEMENT OF TRAVIS REINDL, PROGRAM DIRECTOR, POSTSECONDARY 
   EDUCATION, NATIONAL GOVERNORS ASSOCIATION CENTER FOR BEST 
                           PRACTICES

    Mr. Reindl. Madam Chairwoman, Mr. Bishop, members of the 
subcommittee, good morning.
    I am Travis Reindl, program director for postsecondary 
education at the National Governors Association Center for Best 
Practices. I thank you for the opportunity to share a state-
level perspective on increasing transparency and higher 
education, and I look forward to your questions.
    States have an established track record when it comes to 
promoting transparency from their colleges and universities. 
And today, states face a combination of challenges that require 
even more transparency including a growing demand for a more 
educated workforce, significant and lasting fiscal constraints, 
even as revenues improve, and increasing enrollment by students 
from historically underrepresented and underserved populations.
    Governors are leading the call for better information about 
postsecondary outcomes recognizing that students and their 
families and taxpayers need more and better information about 
how our colleges and universities are doing at getting students 
to and through college, outcomes for those students, and the 
return on states' and students' investments in their education.
    In 2010, the National Governors Association launched 
Complete to Compete, an effort to improve how states measure 
and communicate the performance of their postsecondary 
institutions. That effort has produced metrics in two areas.
    The first is college completion. NGA has partnered with 
Complete College America in an effort to improve and build on 
the graduation rate as a performance measure. The result is the 
common completion metrics.
    These metrics cover one, student progress and this includes 
indicators in areas such as students taking remedial courses, 
course completion, credit accumulation, and retention; and two, 
student outcomes, which includes indicators such as the number 
of degrees awarded, graduation and transfer rates, and average 
time and credits to degree.
    Today, 32 states are collecting and publicly reporting 
these metrics and making real changes in policy. For example, 
Connecticut has adopted legislation designed to overhaul and 
eventually end remedial education as we know it statewide.
    The second area is efficiency and effectiveness. Governors 
are also interested in whether their state's colleges and 
universities are producing graduates that can get jobs in 
today's economy and participate in their communities and how 
efficient those institutions are in moving students to degrees 
and certificates.
    As a result, NGA is developing metrics in four areas; 
meeting workforce needs, completion relative to enrollment, 
return on investment, and student learning.
    States are currently working to adopt and use these metrics 
for public reporting and making policy decisions. I am pleased 
to report progress on both fronts. Public reporting is becoming 
more accessible and user-friendly. For example, a growing 
number of states including Arizona, Kentucky, and Washington 
are creating online interactive data dashboards that display 
state and campus level data in areas such as college readiness, 
student progress and success, research and economic 
development, and efficiency and innovation.
    States are also using the data to shape policy. Colorado is 
developing performance contracts with its colleges and 
universities that are based in part on indicators of student 
outcomes and institutional efficiencies. Tennessee now bases 
its general fund appropriations to public colleges and 
universities on a range of progress, outcome, and efficiency 
measures. And Nevada's governor has proposed a move in that 
direction as well.
    States experiences yielded several key lessons including, 
number one, focus on outcomes as well as inputs. States are 
focusing more on results when it comes to reporting 
postsecondary performance. As students and their families 
invest more in higher education, they are expecting more 
information on what kind of return they can expect from that 
investment. Federal data collection such as the Integrated 
Postsecondary Education Data System or IPEDS should move in the 
same direction, perhaps drawing on the common completion 
metrics.
    States' focus on outcomes is also one of several reasons 
why NGA does not support maintenance of effort requirements for 
participation in federal programs.
    Two: less is more. States are taking this lesson to heart 
and are striving to build data dashboards and performance 
funding formulas that are simpler and clearer than their 
predecessors, which didn't last because they were too 
complicated.
    Simpler and clearer should also be a goal in federal 
efforts. Specifically, there should be review of all existing 
federal dashboards and data tools for postsecondary education 
to determine whether and how they are being used and if there 
is unnecessary duplication.
    Number three: craft policies for the long-term. As 
evidenced by NGA's work, reform doesn't happen overnight. 
Moreover, real sustained reform requires a long-lasting, 
stable, yet flexible framework to allow growth, exploration, 
and ongoing innovation. In this and other areas, NGA urges 
Congress to exercise legislative restraints and craft federal 
policies with an eye for the future.
    In short, increasing transparency in higher education has 
been and continues to be a priority for states. I thank you 
again for the opportunity to testify, and I look forward to 
your questions.
    [The statement of Mr. Reindl follows:]

 Prepared Statement of Travis Reindl, Program Director, Postsecondary 
  Education, National Governors Association Center for Best Practices

    Madame Chairwoman, Mr. Hinojosa, members of the Subcommittee, good 
morning. I am Travis Reindl, program director for postsecondary 
education at the National Governors Association Center for Best 
Practices. I thank you for the opportunity to share a state-level 
perspective on increasing transparency in higher education, and I look 
forward to your questions
1. The Need for Greater Transparency
    States have an established track record when it comes to promoting 
transparency from their colleges and universities. More than three 
decades ago, Tennessee unveiled the first performance-based funding 
formula for its postsecondary institutions and in the years since every 
other state has engaged in efforts to increase accountability among its 
public colleges and universities.
    Today, states face a combination of challenges related to 
postsecondary education that call for even more transparency and more 
use of the data states and institutions gather:
    <bullet> Demand for a more educated workforce. The number of jobs 
requiring education after high school continues to rise in all states, 
and estimates show that our colleges and universities are not on track 
to meet expected labor market demand for educated workers. According to 
the Center on Education and the Workforce at Georgetown University, the 
gap between the supply of workers with postsecondary credentials and 
available job openings requiring those credentials may be as wide as 3 
million by 2018.\1\
    <bullet> Significant and lasting fiscal constraints. State revenues 
are recovering to pre-recession levels, but the recovery is uneven 
across states. Moreover, there are a number of urgent demands competing 
for limited state resources, including health care and K-12 
education.\2\ For colleges and universities, this may mean a slow and 
modest recovery of state investment.
    <bullet> Changes in who goes to college. The demographic make-up of 
states is changing, which means changes in the college-going 
population. The students who are increasingly heading for our colleges 
and universities--low-income students, working adults, students of 
color--are the same types of students who have historically faced 
greater hurdles in getting to and through certificate and degree 
programs.\3\ Identifying and overcoming these hurdles will be essential 
for states and their institutions to increase attainment and meet 
workforce needs.
    Given these challenges, governors, students and their families, and 
taxpayers need more and better information about how our colleges and 
universities are doing at getting students to and through college, 
outcomes for students, and the return on states' and students' 
investments in their education. This information is critical for making 
informed choices about how and where to invest scarce resources and in 
tracking progress toward meeting workforce needs.
    States are leading efforts to make higher education more 
transparent and more productive, and are learning important lessons 
along the way. The federal government can support these efforts, 
specifically by streamlining and coordinating regulations across 
federally funded programs to promote better accountability, 
transparency, and reduce redundancies and administrative costs.
2. Gubernatorial Leadership on Transparency
    Governors have led the call for more transparency and more of a 
focus on outcomes in postsecondary education for years. A quarter 
century ago, former Tennessee Governor Lamar Alexander dedicated his 
year as chair of the National Governors Association (NGA) to an 
initiative called Time for Results, which raised awareness of the need 
for more and better data about colleges' and universities' performance. 
In the years that followed, states developed fact books and performance 
funding and budgeting policies, and the federal government enacted the 
Student Right to Know Act, which mandated the reporting of 
institutional graduation rates.
    Now, in the face of rising economic demand and limited public 
resources, governors are once again leading the call for better 
information about postsecondary outcomes, including return on 
investment. Under the leadership of former West Virginia Governor Joe 
Manchin and former Washington Governor Chris Gregoire, NGA launched 
Complete to Compete, an effort to improve how states measure and 
communicate the performance of their postsecondary education 
institutions. The effort has focused on two types of measures:
            Completion Metrics
    States and the federal government have used the graduation rate for 
years as a measure of student outcomes, but the graduation rate doesn't 
tell the whole story about outcomes. It doesn't, for example, cover 
part-time or transfer students, who represent a significant share of 
total enrollment. It also does not address questions such as where 
students are encountering the greatest roadblocks on the way to 
graduation, or how long it is taking students to get certificates and 
degrees. Given the trends outlined above, these are increasingly 
important questions.
    NGA partnered with Complete College America in an effort to answer 
those questions, and released the Common Completion Metrics in 2010.\4\ 
The metrics fall into two groups:
            Student Progress
    <bullet> Remedial education: How many students end up in remedial 
courses? How many of them pass the remedial course and go on to pass a 
course for credit?
    <bullet> Gatekeeper courses: How many students pass key first-year 
courses in subjects such as mathematics and English?
    <bullet> Credit accumulation: How many students complete a full 
load of courses in their first year?
    <bullet> Course completion: How many courses do students pass in 
relation to the number they attempt in a particular year?
    <bullet> Retention: How many students continue their enrollment 
from the first semester to the second semester or from the first year 
to the second year?
            Student Outcomes
    <bullet> Degrees awarded: How many students complete certificates 
and degrees each year?
    <bullet> Graduation rate: What percentage of students graduates 
within normal time (2 or 4 years) or extended time (3 or 6 years)?
    <bullet> Transfer rate: What percentage of students successfully 
moves from two-year institutions to four-year institutions?
    <bullet> Time and credits to degree: How long does it take for 
students to get certificates and degrees?
    NGA and Complete College America recommend these metrics because 
they are backed by research on what helps--and hurts--students complete 
certificates or degrees. For example, we know that students who enroll 
in remedial classes are less than half as likely to get a certificate 
or degree.\5\ Similarly, we know that students who don't take and 
finish a full load of courses in their first year are more likely to 
lose momentum and drop out of college.\6\
    What are states doing with these metrics? Today, 32 states are 
collecting and publicly reporting the metrics through Complete College 
America's Alliance of States. For example, publishing data on remedial 
education has increased the pressure to do something about that issue 
and states are responding. Connecticut has adopted legislation designed 
to overhaul and eventually end remedial education statewide.\7\
            Efficiency and Effectiveness Metrics
    Completion represents just one part of the transparency picture. 
Governors are also interested in answering the ``what'' and the ``how'' 
of completion--whether their state's colleges and universities are 
producing graduates that can get jobs in today's economy and how 
efficient those institutions are in moving students to degrees and 
certificates.
    As part of Complete to Compete, NGA also identified metrics 
designed to help states gauge the efficiency and effectiveness of 
postsecondary institutions and systems in four areas: \8\
    <bullet> Meeting workforce needs: Are institutions meeting the 
state's need for an educated workforce? [Metrics: certificates and 
degrees awarded relative to the number of employed adults with a 
postsecondary credential; certificates and degrees awarded relative to 
the number of adults in the state with no postsecondary credential]
    <bullet> Student output relative to input: How many students are 
graduating relative to the number enrolled? [Metric: certificate and 
degree completions per 100 students enrolled]
    <bullet> Return on investment: What is the return on the state's 
and students' investment in terms of completed certificates and 
degrees? [Metric: certificate and degree completions per $100,000 of 
state appropriations and net tuition revenues]
    <bullet> Quality: How can colleges and universities increase 
efficiency without sacrificing student learning? [Metrics: learning 
assessments, licensure/certification exam pass rates, job placement 
rates]
    NGA has worked with and can point to a number of states that are 
taking significant steps toward increasing transparency, and more 
importantly, using data for making important policy decisions.
            Data Dashboards
    <bullet> Arizona. The Governor's Office of Education Innovation has 
produced the Arizona Ready Report Card, an interactive online report 
that shows state and campus-level progress toward goals in K-12 and 
postsecondary education and the workforce. Postsecondary and indicators 
include degrees awarded, transfers, cost of attendance, and credit 
accumulation.\9\
    <bullet> Kentucky. The state's Council on Postsecondary Education 
has developed an interactive online dashboard that displays statewide 
and campus performance on indicators in four categories: college 
readiness, student success, research and economic development, and 
efficiency and innovation.\10\
    <bullet> Washington: Using the Common Completion Metrics and other 
key indicators, the Office of Financial Management (OFM) has developed 
an interactive online dashboard that covers the state's six public 
universities and colleges. The dashboard provides statewide and campus-
level data in three categories: enrollment, student progress, and 
degrees and graduates.\11\
            Performance Contracts
    <bullet> Colorado: The Colorado Department of Higher Education is 
developing binding contracts with its public colleges and universities 
and systems that are based on a range of performance metrics, including 
student outcomes and institutional efficiency.\12\
            Performance Funding
    <bullet> Tennessee: The state now allocates its general fund 
appropriations to public two-year and four-year institutions using 
performance metrics that include certificate and degree completions, 
transfers, success in remedial education, job placement, and degree 
completion relative to enrollment.\13\
    <bullet> Nevada: The state is currently considering a complete 
overhaul of its postsecondary funding formula. If adopted, the new 
formula would allocate state general fund appropriations on outcomes: 
the majority on course completions and the remainder on a menu of other 
performance measures, including degree completion in priority areas and 
degree completion relative to enrollment.\14\
3. Lessons Learned
    As in many areas, states have been the laboratory for new thinking 
when it comes to transparency in higher education. Their experiences 
yield several lessons that have implications for federal action, 
including:
    <bullet> Focus on outcomes as well as inputs. States are focusing 
more on results when it comes to reporting postsecondary performance. 
As students and their families invest more in higher education, they 
are expecting more information on what kind of return they can expect 
from that investment. Inputs such as enrollments and revenue still 
matter, but they need to be accompanied by metrics on student success 
and efficiency.
    Federal data collections such as the Integrated Postsecondary 
Education Data System (IPEDS) should move in the same direction, 
perhaps drawing on the Common Completion Metrics.
    States' focus on outcomes is also one of several reasons why NGA 
does not support maintenance of effort (MOE) requirements for 
participation in federal programs. Demanding a fixed level of input 
(i.e. appropriations) without regard for outcomes runs counter to how 
states are increasingly looking at their higher education systems.
    <bullet> Less is more. One of the reasons why many of the 
accountability efforts of the 1990s did not last is that they collapsed 
under their own weight. They had too many goals, too many measures, and 
policymakers and students were overwhelmed with data. States are taking 
this lesson to heart and are striving to build data dashboards and 
performance funding formulas that are simpler and clearer than their 
predecessors.
    Simpler and clearer should be a goal for federal efforts as well. 
The upcoming reauthorization of the Higher Education Act provides a 
prime opportunity for the Congress to review all of the existing 
federal dashboards, report cards, and data tools for postsecondary 
education (e.g. College Navigator, College Scorecard, United States 
Education Dashboard) to determine whether and how they are being used, 
and if there are opportunities for streamlining or consolidation.
    Similarly, we encourage a thorough review of the Integrated 
Postsecondary Education Data System (IPEDS), with the goal of 
identifying and eliminating surveys and survey items that are rarely 
used. This would provide needed relief for states and their colleges 
and universities.
    <bullet> Craft policies for the long term. As evidenced by NGA's 
work, reform doesn't happen overnight. Moreover, real, sustained reform 
requires a long-lasting, stable, yet flexible framework to allow 
growth, exploration, and ongoing innovation. If Congress were to craft 
a solution for success based on today's knowledge, two things are 
likely to occur: (1) the federal policy will be outdated and obsolete 
before it's even enacted; or (2) the law will inhibit state creativity 
and problem solving to help students. NGA's work tells but a small 
story of the growing body of knowledge. In this and other areas, NGA 
urges Congress to exercise ``legislative restraint'' and craft federal 
policies with an eye for the future.
4. Conclusion
    Increasing transparency in higher education has been and continues 
to be a priority for states. With leadership from governors and other 
policymakers, states have made more information about the performance 
of colleges and universities available to students, families, and 
taxpayers. They have learned important lessons along the way and are 
eager to share those lessons with the federal government as it seeks to 
improve the information provided to higher education's funders and 
consumers.
                                endnotes
    \1\ Carnevale, Anthony, with Nicole Smith and Jeff Strohl. Help 
Wanted: Projections of Jobs and Education Requirements Through 2018. 
Washington, D.C.: Center on Education and the Workforce, Georgetown 
University, 2010.
    \2\ ``Summary of Fiscal Year 2014 Proposed Executive Budgets,'' 
National Association of State Budget Officers, 23 March 2013. Accessed 
from: http://www.nasbo.org/sites/default/files/pdf/
FY2014%20Proposed%20Budgets%20-%20Summary.pdf
    \3\ Western Interstate Commission for Higher Education (WICHE). 
Knocking at the College Door: Projections of High School Graduates. 
Boulder, Colo.: Author, 2012.
    \4\ Reyna, Ryan. Common Completion Metrics. Washington, D.C.: 
National Governors Association Center for Best Practices: 2010.
    \5\ Complete College America. Remediation: Higher Education's 
Bridge to Nowhere. Washington, D.C.: Author, 2012.
    \6\ Complete College America. Time Is the Enemy of Graduation. 
Washington, D.C.: Author, 2011.
    \7\ Mangan, Katherine. ``National Groups Call for Big Changes in 
Remedial Education,'' The Chronicle of Higher Education, 13 December 
2012.
    \8\ Reindl, Travis and Ryan Reyna. From Information to Action: 
Revamping Higher Education Accountability Systems. Washington, D.C.: 
National Governors Association Center for Best Practices, 2011.
    \9\ http://arizonaready.com/content/
    \10\ http://dataportal.cpe.ky.gov/sadashboard/dashboard--master.swf
    \11\ http://www.ofm.wa.gov/hied/dashboard/index.html
    \12\ http://highered.colorado.gov/Publications/General/
StrategicPlanning/MasterPlan2012/Master--Plan--Final.pdf
    \13\ http://www.state.tn.us/thec/Divisions/Fiscal/funding--formula/
1-Outcomes%20Based%20Formula%20Narrative%20-%20for%20website.pdf
    \14\ http://system.nevada.edu/tasks/sites/Nshe/assets/File/
Initiatives/2013legislative/NSHE%20Formula%20Study.pdf
                                 ______
                                 
    Chairwoman Foxx. Thank you all again very much.
    I now recognize as the chairman of the full committee, Mr. 
Kline for 5 minutes.
    Mr. Kline. Thank you, Madam Chair for recognizing me for 
the hearing.
    I want to thank the panel for being here today; really 
excellent testimony. We are grappling with a problem that has 
been perplexing us for a very, very long time.
    And I want to start with Mr. Garrido because as I--you got 
both the Pell grant and the G.I. Bill to help you out, but you 
didn't know about that by going to the department's website or 
something like that. Correct? I mean that you--I think your 
testimony was you went personally and talked to advisors at 
different colleges.
    Mr. Garrido. Yes, sir.
    Mr. Kline. Is that right?
    Mr. Garrido. Yes, sir.
    Mr. Kline. And so I guess it is a little bit perplexing 
because we always talk about what information ought to be on 
these websites and how they ought to be user-friendly, but if 
you don't even know they are there, it doesn't help very much. 
It is a great website and really user-friendly. And so I think 
that is what your testimony is, right?
    Mr. Garrido. Yes, sir, the VA--in all actuality, the VA 
just let me know that there was a form for me to submit to be 
able to get my benefits that I paid into.
    When I got to Kaiser however, they were so versed in how to 
use and how to understand the system that they were able to 
help me, guide me, into the steps that I needed to take.
    In other words, they gave me like a checklist and on that 
checklist, meaning my DD 214, anything that I needed to have, 
they gave me all of those things that I needed to be able to 
submit to be able to go through the process. But it was very 
difficult. If an individual was having to do this on their own, 
I don't think they can do it, honestly.
    Mr. Kline. All right, okay. Thank you. I was pretty sure 
that was your testimony. I just wanted to understand it. You 
didn't go to a terrific website, get all your answers, and then 
go make a decision.
    Mr. Garrido. It wasn't just a one-stop, yes.
    Mr. Kline. You had to sort of wade through it the old-
fashioned way.
    Mr. Garrido. Correct.
    Mr. Kline. Okay, thank you very much.
    Dr. Heller, one of the things that we grappled with here I 
am sure way before I ever came on the committee but certainly 
since I've been here is reporting requirements that 
institutions have. We had a witness testify here a couple or 2 
or 3 years ago and he brought in a whole stack of three ring 
binders for just things that the college, that the institution 
had to do and so I am interested in your suggestions, your 
thoughts about how we might be helpful in scaling back some of 
these requirements, but not harming the information that 
students like Mr. Garrido need to make informed decisions.
    Mr. Heller. Congressman, I don't think we need more data 
about college and college admissions and financial aid. We have 
lots of data from the sources that all four of us have talked 
about. What we need for prospective students and their families 
is better information. And that is where, you know, the role of 
college counselors come in, high school counselors.
    Dr. Hurd mentioned things like visiting colleges, getting a 
sense and Mr. Garrido mentioned that when he visited Keiser 
University he got a much better sense of what it was going to 
be like to be a student there.
    So I am a firm believer that there is not more data that we 
need. I think that some of the data the department--and that 
the Department of Education collects through the IPEDS system 
could be improved.
    We could have a conversation about that, but I certainly 
don't think we need any more data, and I don't think even 
though there are concerns about the burdensome requirements of 
the reporting, I think most colleges in this day and age with 
the data systems they have are able to report the kind of data 
that are necessary in IPEDS, that show up in the IPEDS college 
navigator and the net cost calculators and things like that 
without a lot of difficulty.
    So I wouldn't recommend that we try to roll back on any of 
those data and those reporting requirements that we are talking 
about today. There may be other reporting requirements for 
colleges and universities that may be very different, but I 
think the ones we are talking about today are not frankly that 
burdensome on colleges.
    Mr. Kline. Okay. Thank you. I guess I would in my example 
of the witness who had the stack of three ring binders, it was 
all reporting requirements.
    Mr. Heller. Correct.
    Mr. Kline. But interesting, your perspective on this 
particular piece.
    And then finally, I see my time is about to run out but I 
am curious, Mr. Reindl, how do states determine what process to 
use? How do they determine at what to put on these dashboards?
    Mr. Reindl. Well, Chairman, we like to say in the governors 
association, ``When you have seen one state, you have seen one 
state.'' There is always a bit of a respect for state culture 
but it has always started from what you have. One of the things 
that we have encouraged at NGA in working with states and 
governors have really picked up on this is to really take a 
look at what is and to look at how it has been used or when it 
has been used or where it has been used and if we add measures, 
we should be taking measures away.
    So it is a one in, one out kind of a philosophy. We are 
still working on that and trying to make some progress there 
but it is taking whatever a state has and try to help them to 
balance that so that we are not getting to the binders that you 
were mentioning with Dr. Heller.
    Thank you. I see my time is up, I yield back.
    Chairwoman Foxx. Thank you, Mr. Chairman.
    I now recognize Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you very much.
    And thank you for the testimony. I think it was very, very 
good; very insightful, and very helpful.
    I have three issues so I want to try to handle them 
quickly. I want to just pick up on Chairman Kline's question. I 
will address it to Dr. Heller and Mr. Reindl.
    Are we currently collecting any information that is not 
particularly useful to either policymakers or students that we 
could do away with? Just real quick. Anything come to mind?
    Mr. Heller. Within this realm that we are talking about in 
this hearing, Congressman, no, we could have a discussion about 
whether it is important for colleges to have on the College 
Navigator their enrollments by gender for example overall in 
the university, but again, frankly, given the burden of those 
kinds of reporting requirements, I don't think that there is 
anything there that I would say we need to get rid of.
    Mr. Bishop. Okay.
    Mr. Reindl?
    Mr. Reindl. Mr. Bishop, I think governors look at this in 
difference between collection and reporting and I think Dr. 
Heller did a good job in describing the collection part. It is 
the reporting. There are things that we report that maybe 
aren't as valuable and governors are really focused on 
outcomes.
    So it is taking the data and to Dr. Heller's point, turning 
it into information, combining the outcomes with what we spend, 
the inputs, and putting that on the table for taxpayers and 
students and families. So I think it is less the collection 
issue than the reporting issue.
    Mr. Bishop. And if I may then, if you could submit to the 
committee some things that you are currently reporting or that 
colleges are currently reporting that you, at least in the 
opinion of the governors, is not particularly useful.
    Mr. Reindl. Certainly, certainly. From our experience, we 
can send in that for the record.
    Mr. Bishop. Thank you.
    Second issue, both Dr. Hurd and Dr. Heller, you talked 
about the concept of fit, which is I would imagine a 
particularly elusive concept and one that is intensely personal 
and it seems to me that the point that you are making 
particularly you, Dr. Hurd, with respect to fit, goes to the 
human element of the college selection process which in turn 
goes to the element of the college completion process.
    I mean, one of the truisms of student retention issues if 
you want students to finish right, you have got to get them 
started right and one of the ways to get them started right is 
to make sure they pick the right school.
    So what I want to pursue with both of you is the suggestion 
you are making, Dr. Heller, about some federal role in helping 
particularly low income schools afford a better college 
counseling program. So could you talk about it from the 
perspective of what is in your head, and then Dr. Hurd, what 
your actual experience is?
    So Dr. Heller?
    Mr. Heller. Sure, Congressman Bishop, I know there is not a 
lot of support in Washington today for new federal 
initiatives----
    Mr. Bishop. You have you have noticed that? [Laughter.]
    Mr. Heller. Even up in Michigan we have noticed that.
    Nevertheless, I think there is a very good and strong 
history of the federal government supporting local school 
districts through Title I programs for example.
    And with respect to college counseling, I think that is 
another area where the federal government could step in to 
under-resourced schools that are being strangled through local 
funding, local district funding, state funding, and one of the 
easy things to cut out are things like guidance counseling 
because they are not being tested about that and school 
districts are obviously concerned with complying with state 
testing needs.
    So I think this is a case where the federal government 
could step in, could help out these under-resourced schools to 
ensure that these schools and the students in them have an 
opportunity to get the kind of high touch need to figure out 
for students, help them decide what is the right fit in a 
postsecondary institution.
    Mr. Bishop. But what you are talking about is some kind of 
either formula-driven or competitive grant program that would 
place college counselors in high need school districts?
    Mr. Heller. Correct and I think most effectively if it is 
partnered with the states and local districts.
    Mr. Bishop. All right.
    Dr. Hurd?
    Ms. Hurd. And so that is actually what we do. So we have 
been fortunate enough to have federal funding and I am happy to 
tell you that not only is our federal funding being used 
wisely, it is actually matched 3:1.
    So we can get the school districts, we can get the private 
sector, and we can get our higher education institutions to 
coinvest on our federal dollars to make sure that we put really 
well-trained, really well-advised counselors by our guidance 
counselors and make sure that every young person has a pathway 
to a postsecondary plan.
    Mr. Bishop. And the federal funding you receive is through 
AmeriCorps?
    Ms. Hurd. It is through AmeriCorps and it is through the 
Social Innovation Fund, and it is also through Challenge Grant 
money through the Department of Ed, so we have competed for 
every dollar that we have got and what we have been matching 
that.
    Mr. Bishop. And the match is from what source?
    Ms. Hurd. So the match has been a couple places--so part of 
this is going back to the question about higher education 
institutions. I actually think it is higher education 
institutions that have to get in the game.
    They have to be part of the solution. So they actually 
match our dollars by going out and raising money with their 
donors. So corporations, foundations, alumns. Then the National 
Office also raises dollars.
    So like I said, for every dollar, we are matching at the 
National Office, and the higher ed institution is matching as 
well. So I think there is an incredible way to leverage these 
dollars and make sure again when things--again, I would like to 
congratulate you all for doing this especially the funding, 
that is evidenced-based, it is data-driven, and we have to show 
impact.
    And again, I think we can do that in a way that honors our 
students and allows us to have capacities in schools where 
frankly our low income students--I think you saw the 
statistics--out of 146 most selective schools in this country, 
3 percent of those students are from the lowest quarter 
economically; 3 percent.
    Mr. Bishop. Okay. My time is up. Thank you very much. That 
is a fabulous program. Thank you very much.
    Chairwoman Foxx. Mr. Walberg, you are recognized for 5 
minutes.
    Mr. Walberg. I thank the gentlelady.
    And Dr. Heller, it is good to see Michigan State here and 
appreciate the work that you do. In the coming weeks they will 
be a lot of high school students in Michigan that will be 
looking at Michigan State and many this coming the fall will be 
matriculating into the school.
    We have talked about some generalities, but if you could 
give us some specifics on how many avenues the average Michigan 
student and parent have to access information about a college 
or university and also its associated costs.
    Mr. Heller. Well, I described a number of those in my 
testimony. Depending upon what kind of high school they are in, 
they may have access to good college counselors. In other high 
schools, they might not have any kind of college counseling.
    Dr. Hurd has talked about some of the ratios, the student-
counselor ratios around the country and she singled out 
Michigan as one where it has a very high ratio. They can go to 
college websites. They can go to the Department of Education. 
They can look for view books.
    So as I said earlier, there's lots of sources of data out 
there. The problem is that we don't have better information for 
the students and also giving them better information at the 
right time, which is early enough in the college search that 
they can make informed decisions about what they need to do 
themselves, what they need to do to prepare themselves both 
academically as well as financially.
    If a student starts a looking at college at the end of the 
junior year because they have got to decide what they are going 
to do after they graduate in 12 months, it is too late for a 
lot of students. So we have to have a focused effort to get 
better information not just data into students' hands earlier 
in their careers; in the earliest years of high school or even 
middle school.
    That is the reason why GEAR-UP for example starts working 
with students in middle school so they can start to work with 
students to prepare academically and they have plenty of time 
to do that before graduating from high school.
    Mr. Walberg. Is there any information out there--speaking 
of reports and studies--is there any information showing any 
difference between students that come from academic experiences 
that were highly associated with choice schools, in the sense 
that they made their own choice. The parents worked together, 
they picked schools of choice, academies, charter schools, 
whatever else in comparison to those who just a general 
followed the local option?
    Mr. Heller. With respect to where they attend college, 
Congressman?
    Mr. Walberg. Well, no, specifically--yes. Ultimately the--
where they attend college, the success in attending college, 
the good choices that are made, their preparation, having SAT, 
ACT tests taken.
    Just from the--I guess what I am getting at is if they have 
throughout the course of their academic career have made 
significant choices already, they have taken responsibility for 
making those choices because it has been afforded to them 
regardless of economic strata, are there any studies out there 
showing a difference in ultimate outcome?
    Mr. Heller. Not that I am aware of and certainly not any 
studies that do a good job of controlling for background 
characteristics and what we call selectivity bias in terms of 
differences in the parental background, parental aspirations, 
and the kind of push that parents give.
    So I haven't seen any studies that look at the difference 
between students who participate in choice programs like we 
have in Michigan in K-12 schools versus those who don't.
    Mr. Walberg. And I guess I would ask that of any others if 
you have seen that.
    Dr. Hurd, in relationship you are pushing for guidance 
counselors, counselors, peer counselors that are going to be 
there but do you see any--are there any reports showing that we 
ought to be, as you say, starting out earlier?
    Ms. Hurd. So I think the earlier the better in terms of 
giving them knowledge and giving them access to knowledge. I 
also I think all of our public schools--and we are in Michigan. 
We actually have a lot of advisors in Michigan. Michigan State 
is a chapter as well as the University of Michigan.
    I think what we are seeing is the earlier they get the 
information the more they understand the choices, the more they 
understand the options because there are some great options in 
Michigan. They do have great high, you know, high graduation 
rates where financial aid will go a long way.
    I will also just say in terms of charter schools and others 
we actually have a national partnership with KIPP, so I think 
it is not just one public school or one sector that is actually 
struggling with this.
    I think all of us are trying to make sure that our students 
get the most and the best information as early as they can so 
that they and their families can navigate this together, but it 
is a human capital issue.
    I think they have to have the not just information, but 
they have to have somebody help them navigate that path to 
college. And so whether you are in a charter school, a public 
school, a big school, or a small school, it is about making 
right decisions early and making sure that somebody helps 
navigate that path with you.
    Mr. Walberg. Part of that navigation, does that include 
saying to a student, ``Not only is this school not the best for 
you, but there is another approach to education you ought to 
consider; proprietary, vocational----
    Ms. Hurd. Absolutely, absolutely. So I think it is about 
postsecondary opportunity that every young person, and that is 
why I use the words match and fit very intentionally.
    You know, in our program it is any postsecondary plan is a 
success, but they need to have a plan. So whether it is 
military, vocational school, 2-year, 4-year. This isn't about 
getting everybody to school X, this is about getting everybody 
to a place where they have a meaningful credential that has 
been valued well, that has been paid for affordably, and gets 
them to where they get to go so they can make their American 
dream happen.
    Mr. Walberg. Thank you.
    Chairwoman Foxx. Thank you, Mr. Walberg.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Chairwoman Foxx.
    Thank you so much to the witnesses for this important 
hearing. I really appreciate all of the testimony.
    Dr. Heller, I especially appreciated in your testimony 
where you raised some concern that I share about the problems 
of valuing a college based on the wages of an individual upon 
graduation.
    I would be concerned for example of what if a college 
graduates a lot of students who go into nonprofit work or the 
Peace Corps or some other AmeriCorps program for example.
    So I share that concern. I also applaud those of you who 
are talking about getting this information, important 
information, to students early not just early in the college 
search, but early in their education.
    There is a school district in my congressional district 
down in Oregon that actually gives all eighth-grade students, 
they explore all 10th grade students the plan and all of 11th 
grade students the ACT and it is resulted in a lot of students 
actually thinking well maybe I could go to college because of 
they are already in that process.
    Dr. Reindl, you talked about better ways that we can 
measure outcomes and compare different colleges. We actually 
have a program in Oregon called ASPIRE trying to fill those 
gaps because we also don't have enough college counselors to 
meet that recommended ratio. And ASPIRE is Access to Student 
Assistance Programs in Reach of Everyone with thousands, about 
15,000 now trained volunteers.
    It is available to any student regardless of income, and 
students really get that one-on-one mentoring throughout the 
school year. It has been quite successful and has expanded with 
some federal grant help but a lot of volunteers throughout our 
state.
    There is also some great nonprofit work going on in this 
area. We talked about what the states are doing. There is The 
Education Conservancy, is a nonprofit organization that just 
did a pretty thorough joint research project with consumers 
union called Information Matters and they did a lot of student 
surveys including nontraditional students, focus groups, polls, 
and interviews with experts.
    They have five recommendations including simplifying the 
research and admissions process, which they found of course too 
complex and confusing. But one of their recommendations is to 
minimize the information overload by having a more standardized 
framework.
    So I wondered if the people on the panel and I especially 
want to hear from Mr. Garrido, what do you think should be in 
that standardized framework? And following up on what Mr. 
Bishop asked, what information do students really need and are 
we giving them information that they might not find useful?
    Dr. Heller? You are not here for Michigan State, but you 
have a Spartan tie on, would you like to----
    Mr. Heller. Sure, sure. Let me just first say, 
Congresswoman, that I am glad it you raise the issue about 
measuring college outcomes based on wages and challenges in 
doing that.
    The best example that I give people is that I can have two 
students graduating from my teacher education program. One 
could be a--they could both be secondary science teachers. One 
could take a job in one district and have a wage of $35,000 in 
her first year. Another one maybe in another district in 
Michigan and be making $60,000 in her first year.
    Now you tell me whether those are--should be looked at as 
two very different kinds of outcomes. The wage data alone would 
say yes, but I would argue those are very similar kinds of 
positions.
    As far as standardizing, having a template of information, 
I think that is a move in the right direction and I think that 
the work of The Education Conservancy out of Portland is doing 
is doing a great job on trying to nudge the institutions on 
standardizing information just as we are trying to do with the 
financial aid letters and having a template about that.
    It would be nice if we could standardize information about 
admissions and the kind of fit we have been talking about. It 
is a little bit more of a challenge because college is 
obviously very complex. You have got lots of different majors. 
You have got lots of different students between 18-year-olds 
versus adult students.
    So I think it is a little bit more of a challenge to come 
up with a workable template that all colleges could fit into 
regarding admissions as we are trying to do on the financial 
aid side.
    Ms. Bonamici. Thank you, and Mr. Garrido, what would be 
most important in that standardized form for you?
    Mr. Garrido. Maybe the way an individual like myself would 
try to get all the information. When I went looking for this 
information, it was not readily available.
    I had to not only ask friends, ask former teachers. It is--
for a person like myself, it was difficult, however, there are 
some people that can, you know, have the access but in my case, 
I did not have that access. It was very difficult for me to 
find any information on that.
    Ms. Bonamici. Thank you.
    Dr. Hurd?
    Ms. Hurd. You know, it has been the Wild West out there. I 
have no doubt that he had a hard time. There is just too much 
information out there. So I do think there are very consistent 
things, and you all have already moved on some of them in terms 
of graduation rates--in terms of what is in that standard award 
letter, you can give those categories very simply to somebody 
so they can make decisions.
    My biggest issue is that they are not comparing apples to 
apples so things like the College Board has this a new site 
called Big Future that is a huge step in the right direction 
and the Chronicle of Higher Ed just gave a college reality 
checked website this week that shows apples to apples. I think 
part of the problem is when you are apples to oranges, you 
start making unwise choices.
    Ms. Bonamici. And I see my time has expired. Thank you, 
Madam Chair.
    Chairwoman Foxx. Thank you.
    Mrs. Brooks, you are recognized for 5 minutes.
    Mrs. Brooks. Thank you. I am a former senior administrator 
at our state's community college, Ivy Tech Community College, 
and also am the mother of a very recent college graduate and 
one of the things that I know we have struggled with at not 
only our college but I think colleges often struggle with this 
and I am curious is this whole conversation around return on 
investment and whether or not young people and returning 
adults, adults returning to school, really have a very good 
grasp on what their career path might be, what type of majors 
would lead to actual jobs versus just entering into programs of 
study that they just are interested in.
    And so I am curious and I guess I will start with the 
governors association, what kind of metrics and things we ought 
to be--or and information we ought to be providing students at 
all ages about how that field of study will actually lead to a 
career and while I appreciate that it is not all about salary, 
I think it is about needs in this country and what kind of job 
openings there are going to be and how are we doing a good job 
in higher ed or what do we need to be doing to do a far better 
job educating young people and older people on what is really a 
very good career path for the future.
    Mr. Reindl. That is an excellent question, Congresswoman, 
thank you. We have to crawl before we walk and I think that 
from a governor's perspective, we need to look at, are students 
employed after they graduate and is that employment in a family 
supporting salary or wage. I think that it is very easy to get 
very granular quickly and saying does X major lead to Y job.
    We don't live in a planned economy and I don't think we 
will be so I think that the question for governors is are we 
educating people that can in fact be employed and that are 
employed in a way that allows them to be contributors to their 
communities, to the tax basis and be a little bit less granular 
and specific about does a particular major lead to a particular 
job.
    Because, and I know where my major ended up and my parents 
are surprised. So I think that is a case study.
    Mrs. Brooks. Actually, if you would just like to share, Dr. 
Heller, I would be curious what your thoughts are because--but 
what could we put in these college--you know, in these guides 
and in all of the different systems that are out there that can 
help answer that question.
    Mr. Heller. You know, we are certainly--our economy is 
certainly passed this stage, Congresswoman, where people take a 
first job either out of high school, out of college and stick 
in that job or with that employer for the rest of their 
careers.
    People now are expected to hold a large number of jobs over 
the course of their careers and in all of those jobs they have 
to have the ability to learn new skills, learn new things 
whether it is on the job or through additional training.
    So focusing only on the kinds of wages that people earn 
coming out of school very quickly or very soon after they have 
graduated from college I think can provide a lot of misleading 
information. If anything, you want to know where somebody is 5, 
10, 15, even 20 years down the road with their career.
    Mr. Reindl gave the example where if you looked at what he 
is doing today, and the same would certainly be true with me, 
it would necessarily match up with what I did as an 
undergraduate. So I think that is the challenge and that is the 
difficulty with trying to map specific careers to specific 
majors outside of those vocational programs that are very 
clearly and targeted at specific locations.
    So a lot of the Ivy Tech programs for example that are 
training people for specific careers but even in those cases, 
we see people who may do that career for 5, 10 years, and then 
switch at some point in the future. So that is the biggest 
challenge we have in trying to do this mapping that Mr. Reindl 
is talking about.
    Mrs. Brooks. And I guess I would ask Mr. Garrido, you chose 
criminal justice and I have been involved in criminal justice 
system actually most of my career until Ivy Tech. Were there 
certain things that you looked at in any of the tools that you 
looked at or was it the advising that helped lead you towards 
the criminal justice major?
    And how are the job prospects looking?
    Mr. Garrido. In my situation, seeing as how I was over 30 
years old and when I was a child in, you know, your middle 
school and high school I was, I want to be that or I have 
ambitions to be a firefighter or, you know, role model in the 
community. I joined the service.
    Mrs. Brooks. And thank you for your service.
    Mr. Garrido. Thank you. Unfortunately, I was hurt and if 
not for me, for myself being hurt, I would still be in the 
service. Now, I had to get into something that I can relate to 
in the service and in the civilian world, so I can contribute.
    I chose criminal justice because it was so close to the 
field that I can relate to. In my age, I wasn't able to have 
people, you know, you should be a lawyer or you should be a 
consultant. I didn't have that, you know, an opportunity.
    So by me choosing a vocational school, that was able to 
teach me or to streamline that process was awesome in my--I am 
sorry for the word, but, you know----
    [Laughter.]
    Mrs. Brooks. Well, thank you and thanks. I will think you 
make a terrific firefighter someday or public servant. Thank 
you.
    Chairwoman Foxx. Mrs. Davis, you are recognized for 5 
minutes.
    Mrs. Davis. Thank you, Madam Chair.
    And I appreciate you all being here.
    Dr. Hurd, I wanted to talk to you a little bit more about 
the Stanford study. I think you mentioned it and in that case 
they found that students who ordinarily would probably not 
apply to what they call Peer Colleges, high esteem colleges 
perhaps that when they have more information they are more 
likely to apply and that more information is basically the fact 
that over the course of their college education that their 
costs would not be as dramatic as perhaps they might have 
thought.
    Ms. Hurd. That is right.
    Mrs. Davis. And so with that kind of information and I 
think there has been a follow-up study as well, why aren't--is 
there a better way then to get out that information for 
students? And clearly, it has to be done much earlier? There 
are programs--I think someone mentioned STRIVE, I know AVID as 
a program that really does a good job of integrating the 
college experience with the curriculum so that it is, you know, 
it is not something that comes after.
    Ms. Hurd. Right.
    Mrs. Davis. What is it within that--I mean, if the Stanford 
study is actually an important one in terms of learning, what 
is missing in kids knowledge about what their options are? Why 
aren't we doing more than that?
    Ms. Hurd. Well, so, I think you are hitting on something 
really important which is that information matters. So 
graduation rates matter. That net income matters because what 
we are talking about is low income students that frankly they 
and their parents have sticker shock and they think I can't go 
to school X for $40,000 or $50,000 a year when they realize 
that they might be going to school X for nothing or they might 
be going to school X actually for $5,000 or $10,000 a year.
    So part of it is just at that lack of information and 
because like I said that some of the measures you all have made 
it to make these things more standard so that we can compare 
apples to apples it is becoming more transparent. It happens 
more.
    I do think we have a human capital challenge. So again, I 
think this is why I am so honored to work with the recent 
graduates I work with but frankly in this space, we have had a 
lot of cohort programs, so 15 kids get served but the other 500 
in the senior class don't get served.
    And we have had a lot of, you know, if you have a GPA of 3, 
you know, 3.0 and higher you might get served or if you have a 
GPA of 3.5 or higher you might get served. I think we need to 
get to a place where every student counts and every student is 
given this information.
    And so again, I think we have had a situation where we have 
had just cherry picking frankly; certain school districts, 
certain populations, certain numbers of kids when every young 
person, every citizen deserves to have the information.
    I also think one of the barriers frankly is that again, 
families when they have that sticker shock they don't make 
those choices as wisely as they could, and again if you look at 
retention rates--so this is another thing that is important 
about that study.
    If they go to those highly selective schools, their chances 
of actually graduating go up as well.
    Mrs. Davis. They are higher, right.
    Ms. Hurd. So it is not just about picking the right school 
because it is the right match. It is about retaining and having 
a meaningful credential and I do think this is a pressure point 
on our higher education institutions to actually make sure that 
when they--that they honor the investment. When they take a 
young person, they should make sure that they graduate.
    Mrs. Davis. We had a hearing earlier and I know one of 
the--I think the entire panel in many ways was suggesting 
actually to all of us who were looking for a federal role in 
this, is there one? We are suggesting that, well, we don't 
really know very much yet and so you don't want to act on, you 
know, information that perhaps is not really accurate.
    But on the other hand, when it comes to retention and 
certainly what you are suggesting is we do know that in many 
cases they--there is a--the schools that students may shy away 
from may be more inclined to be more rigorous in supporting the 
outcomes. And so I think this is--we do know that--what is it 
that we don't know actually?
    Ms. Hurd. Well, and again, I think others--just real 
quickly--I said this statistic before because it keeps me up at 
night, frankly. So if you take our 146 more selective 
institutions, many of them are in your states, and you look at 
who is going, the bottom, you know, the bottom quarter--there 
is only 3 percent of those kids that are low income. So we have 
got a huge gap.
    And so I think part of this again is what we don't know is 
that--or what we do know is why are they not going? It is 
because we are not actively recruiting them. We are not telling 
them what is possible and I do think higher ed has to get in 
the game.
    So again, I think of the 18 universities that I work with 
are all selective institutions and they are not recruiting for 
just their own institution, they are recruiting for all forms 
of higher ed, but to have a Michigan State or a UNC Chapel Hill 
or a Cal Berkeley say we care so much about every student that 
we are going to put our recent graduate in there and make sure 
that every person has a graduation rate in front of them, every 
student has a financial aid package in front of them, is an 
incredibly powerful thing and I think the federal government 
could be huge in making sure that that kind of national service 
frankly and that kind of transparency is presented to every 
single one of our students.
    Mrs. Davis. Yes. Thank you very much.
    Anybody else want to quickly and the two seconds we have 
left weigh in on that? No? Okay, thank you.
    Chairwoman Foxx. Thank you.
    Mr. Thompson, you are recognized for 5 minutes.
    Mr. Thompson. Thank you, Madam Chairwoman.
    Thanks to the panel.
    Mr. Garrido, thank you for your service.
    When--a little bit different--I want to back up a little 
bit to post-discharge. When you were on active duty, did the 
Department of Defense in terms of that transition help at all 
or during your active duty service in terms of providing 
information on access to education whether it is online 
education or anything like that or how well did that 
information get pushed out if it got pushed out at all to those 
of you in the front lines?
    Mr. Garrido. What they had it was a program called the Navy 
College Online and basically for instance when you do like a C 
school or an A school, depending on what type of course title 
it had, it was able to be then taken into a, like a educational 
standpoint.
    In other words, you could take it as a credit for let's say 
math or science credit. Depending on what classes you took and 
what classes were available for you to be able to take as like 
a--for instance some of my higher training was chemical, 
biological. We had detaining, that type of stuff. So in the 
civilian sector, it is not really a acknowledged title----
    Mr. Thompson. That was kind of my follow-up question. How 
well did the training that you did translate into the academic 
setting? I think that is something we could--that is a 
challenge to our universities, our career and technical 
education centers to honor our veterans by doing a better job 
of that.
    Did--in your search, you know, once you were doing the 
online search, you were looking for resources for a school and 
the one you picked, in that one or others, did you see 
information that, you know, kind of was connected to that, that 
kind of provided answers of, you know, if you are a returning 
veteran you got--maybe you had, took some courses that were 
translated into semester hours or credit hours but also did you 
see anything where there were colleges that recognized and 
somehow would provide recognition of your training and 
experience?
    Mr. Garrido. I know for a fact Kaiser does that. Part of my 
checklist was to bring up my SMART Transcript and then they 
were able to document to see what was able to be taken and used 
so I would have that much less time in the academic, you know, 
in the training environment to get me out that much quicker out 
into the field.
    Mr. Thompson. To give you a head start.
    Mr. Garrido. Correct.
    Mr. Thompson. Thanks.
    Mr. Heller. Congressman, if I may, back when I was at Penn 
State in your district, I did a study funded by the National 
Science Foundation that we were looking at veterans who were 
transitioning into postsecondary education and the kind of 
information they received and we spoke to veterans on I think 
six campuses around the country and we heard a very common 
message from all of them.
    They all said that they wished they had more information 
about their postsecondary options earlier in their military 
careers. Most of them received the information only when they 
were separating when they said they were absolutely swamped 
with everything from information about health benefits to 
education to housing, et cetera.
    And they are reflected back and said they wish they had 
better information earlier in their military careers so they 
would know the kind of training that they were signing up for 
in the military and how that would translate to later credits 
in college. So they all wanted more information at earlier.
    Mr. Thompson. Very good, thank you.
    Dr. Hurd, you mentioned a phrase that is near and dear to 
me, I talk about a lot, and that is financial literacy. Now how 
would--what would--for you, what would be your definition of 
full financial literacy for perspective students and their 
parents? And then a follow up to that, in your opinion, what is 
the optimal time to begin that process?
    Ms. Hurd. Thank you for the question. Early. We are talking 
sixth, you know, seventh, eighth grade. Some of our advisors 
actually play this game, they call it the game of life and 
everybody gets an envelope and everybody has a different career 
and you start paying rent and you start paying back your loans 
and you start--and then all of a sudden, people start running 
out of money and it is ah-ha moment. And if we did that in 12th 
grade or frankly if we do that in college or we do that after 
college, that is when we get into the credit card situation we 
are in right now, that is when we get into all sorts of things.
    So I would say middle school is when financial literacy 
really needs to kick in, and I do think the difference between 
a loan and grant--it might be basic to everybody in this room--
it is not basic to our students.
    You know the difference between like I said, a net price 
and what the sticker price is, huge difference. Again, there 
are some amazing institutions in Pennsylvania, a lot of our 
students could go there for a lot less than what is on the 
website or what is in a college guide book.
    So, I mean, I do think there are some very basic things 
like I said in my testimony, we have people putting their 
tuition on credit cards because they feel like a government 
loan is a hand out, because they feel like they don't want to 
do this, they don't want to do that, and so again, I think 
loan, grant, scholarship, net price versus what the sticker 
price is--there are just some very basic things in terms of 
financial literacy that would be game changers for our 
families.
    Mr. Thompson. All right. Thank you.
    Thank you, Chairwoman.
    Chairwoman Foxx. Thank you, Mr. Thompson.
    Mrs. McCarthy, your recognized for 5 minutes.
    Mrs. McCarthy. Thank you.
    And thank you for--I am sorry I missed all the testimony. I 
had--we both--all of us probably all have two committees and we 
have to go running between the two of them.
    Dr. Hurd, I want to follow up on, you know, what--some of 
the things that I have read about the program on sending the 
college graduates to be placed in high schools as peer 
advisors. What is the average stay of the students in the 
schools that they're placed?
    Ms. Hurd. So, we place our recent college graduates in 
school for 2 years and then after their 2 years, they are 
replaced by another member. So we are there for the long haul, 
but their term of service is 2 years. We actually track them to 
see what happens to them afterwards and I am happy to report a 
lot of them are going to education schools. They are going to 
places like Dr. Heller's school. A lot of them are going into 
public service. I was actually this morning with our divisor in 
TC Williams Alexandria who is off to Syracuse to do an MPA. She 
wants to staff you all someday. So some of them see as a policy 
issue, some of them say they want to be practitioners, but we 
are creating new generation of leaders friendly by having them 
go into these public schools for 2 years.
    Mrs. McCarthy. And how is the relationship between the 
students that are coming into the schools and the counselor 
that might already be there?
    Ms. Hurd. Yes, so, because they are recent graduates and 
they are there full-time, they integrate into the school very 
well. So frankly, if they were current students or if they were 
kind of roadrunners coming back and forth I think we would have 
some issues, but they are there full time. So they are there 
from 7 in the morning until 5 at night. They are there for 
football games. They are there for this and that. And as I said 
before, our guidance counselor/student ratio is so horrific in 
this country, our guidance counselors are actually welcoming 
them with open arms.
    And I will tell you they see them as this next generation 
of guidance counselors so they actually are writing their rec 
letters to education schools and other things.
    The thing that also gets me really excited is frankly we 
have not--and Dr. Heller can talk about this--we have not 
always educated our guidance counselors very well. So we see a 
lot of guidance counselors who want to come back to us for 
training. They want to come on our summer training. We do not 
teach college advising and financial aid in our education 
schools. And frankly, we don't need to just teach the guidance 
counselors, we need to teach the teachers, and we need to teach 
the principles because the whole school has to believe in a 
college going culture, not just the guidance counselor.
    So I do think part of it is the lack of education that they 
are getting in the professional training on some of these 
issues which I know Dr. Heller and others are trying to remedy, 
but that is historically been a problem with a guidance 
counselor opens up their arms and says thank you so much, I 
didn't know all of these things that you know.
    And our training is so great because our universities are 
doing this--I should just clarify--it is our financial aid 
people, our admissions people who are taking the time to give 
these advisors 6 weeks of really thorough training.
    And one of the things I have to ask you to look at is our 
high schools are drowning in this information, why aren't we 
asking our universities, our admissions and financial aid 
professionals and to help so this is a seamless pipeline that 
helps everybody and not this completely siloed system we are in 
right now.
    Mrs. McCarthy. I have a very strong opinions on some of our 
teaching colleges and how we are actually teaching our teachers 
to be teachers. I think that needs to be looked at. A lot of 
the states are looking at that but I think that something that 
should be looked into even deeper.
    Mr. Garrido, tell me how you chose the school that you 
ended up going to.
    Mr. Garrido. I--my other--my better half, she has a 
Bachelor's in Biology, an Associates in Psychology, a 
Bachelor's in Nursing, and now she is going for a nurse 
practitioner. She was a high school teacher and when I came 
back from the service, she was a high school teacher for 3 
years.
    The guidance counselor like they have been you know, 
testifying about, my other half was the activities type--the 
ones for the Grad Nines--the, you know, all the fun stuff in 
high school that you always want to have the memory, the proms, 
well, my--Jackie had a really close relationship with her 
students.
    So she was able to talk to all these recruiters and these 
people who are coming on campuses and she was able to gauge an 
angle to see which student would best work out with what 
school. She was able to do that for me and I ended up Kaiser 
University.
    Mrs. McCarthy. All right. And as far as the transition 
coming from military life going into----
    Mr. Garrido. Criminal justice.
    Mrs. McCarthy [continuing]. University setting, how did the 
school work with you to make that transition? Because from what 
I have spoken to, some of these colleges that are certainly 
reaching out to our veterans coming home to give them the 
education that they are looking for. A lot of those military 
people had a very hard time and it is almost a new world I 
guess for the universities because so many are coming back 
almost like after World War II and they have had to come up 
with programs. So was that transition good for you?
    Mr. Garrido. Being a part of the service I am used to being 
in a tight structure that you wake up in the morning. At 6.30, 
you are going to PT. At 9 o'clock, you are going to muster. At 
10 o'clock you are going to do this. You know, getting out of 
the service and just all of a sudden you are free, doesn't 
help.
    Mrs. McCarthy. No. I could imagine.
    Mr. Garrido. It is very difficult, and my situation was 
extremely difficult to be able to find the resources add that I 
needed to be able to continue. If it wasn't for my support 
system, I don't think I would have been able to make it.
    Mrs. McCarthy. Mr. Heller, did you want to add anything to 
that?
    Mr. Heller. No. Just to add to what Dr. Hurd said, you 
know, guidance counselors particularly in schools that serve 
predominately low income populations, first-generation 
populations. They spend most of their time on what they will 
tell you is STD, and that is not sexually transmitted diseases, 
it is scheduling, testing, and discipline.
    And they spend so much time on that they don't have the 
time to work with the students in their school who may express 
an interest in going to college. So that is why the 
supplemental work that people and Dr. Hurd's program can do are 
welcomed into these schools generally with open arms because 
the counselors recognize that they just don't have the time to 
do that because they have their hands full with other things.
    Mrs. McCarthy. Thank you. My time is up.
    I yield back.
    Chairwoman Foxx. Thank you. I want to thank all of the 
members for being so good on their questions and staying on 
time today. Everybody has done a great job. So thanks for 
recognizing that.
    I am now going to recognize myself for 5 minutes.
    I am very impressed that all of you are talking about 
outcomes and information versus data. I think you all have 
either explicitly said that or implicit--or implied it.
    Dr. Heller, if you had to pick five pieces of information 
that the federal government should collect and ensure it is 
provided to students, what would they be and why?
    Mr. Heller. Oh boy, that is a good question. I will start 
with net price data. I think net price data is critical as the 
other witnesses have said as well. So and also net price data 
for example by family income. So not just an average net price, 
but if you are in this income bracket, here is what the average 
net price is at our institution.
    The second thing that would be information about the kinds 
of admissions criteria that make a difference for that 
institution. So for example, how heavily are things like test 
scores weighed versus high school grades; AP classes, things 
like that.
    Certainly, graduation rates is critical and this is an area 
as I mentioned earlier, we have lots of data but we don't have 
the right data about graduation rates because right now we are 
only tracking students who start in one school and complete in 
that school.
    And with over half of all students today attending more 
than one institution, we need to have some kind of way of 
tracking students who cross institutions because for example, 
if a student starts at Michigan State and spends 2 years there 
and then transfers somewhere else, that is not going to show as 
a completion to us even though they may go elsewhere and 
complete their bachelor's degree at a school down the street in 
2 more years. So we need better data that tracks students 
across institutions.
    That is three and I will let anybody else chime in on the 
other two that they would like to add.
    Chairwoman Foxx. Mr. Reindl, do you want to add to that?
    Mr. Reindl. Well, I think that from the governor's 
perspective it is really important and you want to look at who 
is coming and that is age, race, income. It is just essential 
especially for working adults like Mr. Garrido. We need to know 
how many of them are participating and then number two, 
remediation. That is the ticket out for too many students. And 
it is a national disgrace that we were not being transparent 
about that until governors came together and said no, we are 
going to be transparent about that.
    It is to Dr. Heller's point, completion. Again, age, race, 
income. If I were a working adult, I would like to know how 
good that college does at getting people like me to graduation. 
How do we pay for it? I think Dr. Heller touched on that very 
nicely.
    Net and debt--this is what I would say--you know, net 
tuition--net price as well as the indebtedness and then the 
return. It is essential to know if I am paying this tuition, 
what is my likelihood of being employed somehow somewhere and 
how much--how many people are being helped by my tuition and by 
the money that states pay. So it is coming, going, and paying.
    Chairwoman Foxx. Coming, going, and paying. Okay. Great.
    Dr. Hurd, do you have anything to add to that?
    Ms. Hurd. They have done a beautiful job covering it.
    Chairwoman Foxx. Right. Thank you very much.
    Mr. Reindl, would you talk a little bit more about how the 
information that we are talking about gets presented? Are there 
some suggestions, are there some states that have done a 
wonderful job of presenting the information so that we could 
look at those as models?
    Mr. Reindl. Certainly, Chairwoman Foxx. And in my 
testimony, I point to three states; Kentucky, Washington State, 
and Arizona. They have developed interactive dashboards. You go 
on the web. You are able to pull down--it is a small number of 
measures so that you are not overwhelmed--you can tell how many 
students graduated from X University or College that year or 
look at it statewide or look at how many students ended up in 
remedial classes at the community colleges in the state or at a 
specific college.
    So those three states--and there are others--but those 
three states in particular make it easy for a consumer to just 
go, push the button that you want, and look at it either across 
the state if I am a legislator or just a taxpayer or at a 
particular campus.
    If I am that working adults and I want to know, how many 
people like me end up in remedial education so I think those 
are three examples of states that have done some good work in 
that.
    Chairwoman Foxx. Thank you very much.
    I want to thank the panel again for taking time to testify 
before the subcommittee today. I think again it has been a very 
good hearing. I think the questions were well asked and I think 
you all have done a great job.
    Mr. Bishop, do you have any closing remarks you would like 
to make?
    Mr. Bishop. Other than to thank the panel both for their 
testimony and also for the work that they do and to 
congratulate Mr. Garrido on what I am sure is going to be a 
great career. So thank you.
    Chairwoman Foxx. Well I would like to make a couple of 
observations based on the comments that I have heard today. I 
appreciate the emphasis, Dr. Hurd, that you have put on 
evidence-based and data-driven results. I am going to submit 
some questions to you after today's hearing that I didn't want 
to try to--I knew you wouldn't probably have the answers at 
your ready and so I am going to ask you some questions about 
that.
    In reading your testimony, Dr. Heller, I have noted our 
talking about traditional versus nontraditional and I have 
challenged other panels that we have had. When you are talking 
about 70 percent of students going to community colleges and 
proprietary schools, that is what I believe is the total in 
your testimony, the term traditional doesn't mean anything 
anymore.
    Certainly if--I can't remember the exact amount but the 
number of students in 4-year schools that are between ages 18 
and 24 is something like 14 percent now or at least that is 
making up 14 percent of our college going population. So I am 
challenging people to come up with a better title than 
traditional-nontraditional because the nontraditional have 
become the traditional or they are certainly the majority.
    I am again, intrigued by the emphasis that all of you have 
put on the word information as opposed to data. I think that is 
very, very important that we pay attention to those and I 
appreciate that a lot.
    Again, the emphasis on outcomes. Many, many years ago I 
thought we were going to get to that point. I have been around 
for a long time. I have been involved with Southern 
Association, accreditations, and been railing against inputs 
for a long time and saying when are we going to get to where we 
talk about outcomes. And so I appreciate very much the 
emphasis, Mr. Reindl, that you say that the governors are 
putting on this and I think it is really, really important that 
we do that.
    I don't have a concern about people choosing to go to 
school closer to their homes or going to community colleges to 
begin with. That does not--or proprietary schools--that doesn't 
seem to bother me but it does seem to bother some people that 
we are not--that folks are doing that.
    There is an implication that that is not as good as going a 
long distance to some school. You know, frankly, I think it is 
a smart decision on the part of a lot of people to do that.
    When we talk about the enormous debt that many students 
take on, maybe these students are pretty smart and their 
parents and they are saying we are not going to take on the 
debt because they have looked at the outcomes and they have 
seen that it isn't necessary to get a degree from an Ivy League 
school to do well outside--after you get out of college.
    And so I think that that is very good. I think most, or a 
lot of my colleagues think the wisdom of the world is out there 
in flyover country and so we are very keen on that.
    I did note a couple people mentioned up here the issue of 
personal responsibility, and while I believe that if we spend 
hard-working taxpayer dollars, we deserve to get good outcomes 
for that, there is something about personal responsibility that 
I think is getting lost in our country and it concerns me a 
great deal.
    It is as though the government has an answer for everything 
and I think that in some cases we diminished the emphasis on 
personal responsibility for people and that we expect people to 
be spoon-fed in some way.
    So there are responsibilities. However, again, I think 
there has to be a balance. If we are going to pay for 
something, either at the local, state, or federal level, then 
we ought to be getting value for where that money is being 
spent.
    So I appreciate again all of the testimony that we have 
had. I do think this will be useful to us as we look to the 
reauthorization of the higher ed bill, as we look to other 
issues that we are dealing with on this subcommittee and on the 
larger committee.
    So I want to thank you all again for being here.
    I want to thank all of my colleagues for being here today.
    There being no further business, the subcommittee stands 
adjourned.
    [Additional submission for the record from Hon. Suzanne 
Bonamici, a Representative in Congress from the State of 
Oregon, ``Information Matters,'' by the Education Conservancy, 
may be accessed at the following Internet address:]

                  http://www.educationconservancy.org/
                 InformationMattersResearchReportRv.pdf

                                 ______
                                 
    [Additional submission for the record from Hon. George 
Miller, senior Democratic member, Committee on Education and 
the Workforce, follows:]

       Prepared Statement of the National College Access Network

    The National College Access Network (NCAN) appreciates the 
opportunity to respond to the April 24, 2013, Subcommittee on Higher 
Education and Workforce Training hearing titled, ``Keeping College 
within Reach: Enhancing Transparency for Students, Families, and 
Taxpayers.'' NCAN and our over 350 affiliate organizations nationwide 
work to assist low-income, first-generation, and students of color to 
achieve their educational dreams. A large portion of the services 
provided to our over 200,000 students annually is guidance through the 
complicated and opaque pathway to college.
    Increasing the number of Americans with postsecondary credentials 
economically and socially benefits both the country and those 
individuals receiving degrees. But today's pathway to and through 
college is often confusing and full of barriers. In order to increase 
those going to and graduating from college, the federal government, 
state governments, and institutions must each do their part to provide 
a transparent pathway to and through college. Transparency includes 
simplicity for students and accountability to the taxpayers.
    NCAN's response will further explore the role the federal 
government can play to increase transparency for students and 
taxpayers. Mr. Travis Reindl spoke for the state role during his 
testimony, and Dr. Don Heller on the role of institutions. NCAN concurs 
with Dr. Nicole Hurd's assertion that institutions must, ``honor their 
investment by getting students to graduation.'' This first and foremost 
must be the priority of every institution in this country.
    The profile of the college student is rapidly changing. Students 
who follow the traditional path enter college directly after high 
school, live on campus, and graduate within five years. With 44% of 
Pell grant recipients over the age of 24 \1\ and 75% of all college 
students commuting to campus,\2\ the traditional path no longer defines 
the college experience for most students. NCAN encourages a shift away 
from labeling students ``traditional/non-traditional,'' as suggested by 
Representative Foxx. Other terms currently used in the field to 
describe the new normal include: new majority students, post-
traditional students, 21st century students, dependent/independent 
students, and traditional-aged/adult learners.
---------------------------------------------------------------------------
    \1\ ``Rethinking Pell Grants.'' The College Board. 2013. http://
media.collegeboard.com/digitalServices/pdf/advocacy/policycenter/
advocacy-rethinking-pell-grants-one-pager.pdf Page 1.
    \2\ Time Is the Enemy.'' Complete College America. 2011. http://
www.completecollege.org/docs/Time--Is--the--Enemy.pdf Page 6.
---------------------------------------------------------------------------
    For these students who are first in the family to go to college, 
receiving guidance through the college going process is crucial. The 
federal government must lead the effort to collect and disseminate the 
information students need. Representative Foxx asked witnesses what the 
most important information for students to have when making a college 
choice is. For NCAN, the two most crucial pieces of information for 
students are:
    <bullet> Disaggregated graduation rates for all students. 
Currently, the Integrated Postsecondary Education Data System (IPEDS) 
only collects graduation rates for first-time, full-time students and 
does not break down those rates by Pell grant status. With a growing 
number of students following a post-traditional college path, this 
limited definition of graduation rates does not inform students as to 
their chances of completing a degree from an institution.
    <bullet> Net price by family income. It is important for students 
to know not only the net price of an institution, but what that net 
price is for their family's economic quintile. Many low-income students 
still think college is out of reach based solely on the cost.
    Additional helpful information would be the profile (age, race, 
income, part time/full time, size) of the student body, the cohort loan 
default rate, and the admission criteria for the school. Admission 
criteria is important for students to learn in middle school so that 
they can plan their high school paths to not only complete high school 
but have the right courses to be college ready and eligible as those 
two paths are always the same.
    The federal government must continue its support of competitive 
funding programs, such as AmeriCorps and Social Innovation Grants, that 
the non-profit sector leverages in its work. As Dr. Nicole Hurd 
testified, the National College Advising Corps has multiplied these 
federal funds several times over to place near-peer counselors in high 
schools across the country to provide the high-touch, one-on-one 
counseling that students need to help them through this process. 
Schools with NCAC advisors experience an 8-12% increase in college 
going rates in comparison to similar high schools without college 
advisors.\3\ Further, NCAN has affiliates running proven, effective 
programs across the country that leverage AmeriCorps members to provide 
added assistance in high need high schools. Many of these AmeriCorps 
volunteers are first-generation college students from low-income 
backgrounds who become college advisors to give back to their 
communities.
---------------------------------------------------------------------------
    \3\ National College Advising Corps. ``Success & Results.'' http://
www.advisingcorps.org/success-results. 6 May 2013.
---------------------------------------------------------------------------
    The importance of this direct, in person advising was discussed 
during the hearing, and its role cannot be understated. During his 
testimony, Dr. Don Heller noted that guidance counselors, who 
traditionally provide these supports, are burdened by high case loads 
and frequently spend most of their time on scheduling, testing, and 
discipline, leaving little time to help their students plan for their 
futures. Because of this burden on counselors, NCAN affiliates such as 
the National College Advising Corps work with guidance counselors to 
provide the individual support students need while building a college-
going culture \4\ within the high schools so that all students have the 
opportunity to succeed. Additionally, fewer than 10% of guidance 
counselor training programs nationwide offer a course in college 
planning according to Patrick O'Connor, former president of the 
National Associations for College Admissions Counselors.\5\ NCAN 
affiliates also aid counselors by bringing training and expertise to 
high need high schools.
---------------------------------------------------------------------------
    \4\ Corwin, Zoe and William Tierney. ``Getting There--and Beyond: 
Building a Culture of College-going in High Schools.'' USC Center for 
Higher Education Policy Analysis. January 2007. http://www.eric.ed.gov/
PDFS/ED498731.pdf Page 3.
    \5\ Adams, Caralee. ``Guidance Counselors Lack Training in College 
Admissions.'' Education Week. 28 December 2010. http: / / 
blogs.edweek.org / edweek / college -- bound / 2010 / 12 / counselors 
-- lack -- training -- in -- helping -- students -- get -- into -- 
college.html?utm -- source = feedbur ner&utm -- medium = feed&utm -- 
campaign = Feed%3A + edweek%2FBVuj + %28Education + Week + Blog%3A + 
College + Bound%29
---------------------------------------------------------------------------
    The hearing witnesses showed why our higher education system needs 
to be more transparent--so that all students have the opportunity to 
attend college without barriers. It also was clear that while 
technology is an important part of this outreach to students, that 
direct advising is crucial to the process. The federal government must 
lead the effort to collect and disseminate the crucial information 
students need about all colleges as well as continue to provide funds 
that the non-government sectors can leverage to do this work so that 
students have access to the best information and tax payers can examine 
their return on investment.
                                 ______
                                 
    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                      Washington, DC, June 5, 2013.
Dr. Donald Heller, Dean, College of Education,
Michigan State University, Erickson Hall, 620 Farm Lane, Rm. 501, E. 
        Lansing, MI 48824.
    Dear Dr. Heller: Thank you for testifying before the Subcommittee 
on Higher Education and Workforce Training at the hearing entitled, 
``Keeping College Within Reach: Enhancing Transparency for Students, 
Families and Taxpayers,'' on Wednesday, April 24, 2013. I appreciate 
your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than June 19, 2013 for inclusion in the final hearing record. 
Responses should be sent to Amy Jones, Brian Melnyk or Emily Slack of 
the committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
                       chairman john kline (r-mn)
    1. It seems the federal government provides a number of tools for 
students and families to utilize in their college search process 
whether it be the College Scorecard, the Shopping Sheet, the net price 
calculator, or data derived from new regulations. Do you have a sense 
about whether these tools offer consistent data? So, for example, if a 
student uses more than one tool, does he or she get consistent 
information?
    2. The College Navigator displays data at the institutional level. 
Do you think that collecting data at this level assists the current 
college-going population or do you believe we need to display 
information by program? What information might we want at the 
programmatic level?
                  representative richard hudson (r-nc)
    1. Dr. Heller, you mentioned that both traditional--aged students 
as well as adults returning to college generally are looking at 
institutions close to where they live. What other metrics, besides 
location, do traditional-aged students examine when choosing a college? 
Do these vary for non-traditional students?
    2. Your testimony mentions that the Department of Education can 
improve upon the information it currently provides to students and 
families. Are there more appropriate or accessible ways the federal 
government can present data to students, parents, and taxpayers?
                                 ______
                                 

      Dr. Heller's Response to Questions Submitted for the Record

                             chairman kline
    1. It seems the federal government provides a number of tools for 
students and families to utilize in their college search process 
whether it be the College Scorecard, the Shopping Sheet, the net price 
calculator, or data derived from new regulations. Do you have a sense 
about whether these tools offer consistent data? So, for example, if a 
student uses more than one tool, does he or she get consistent 
information?

    In my experience, information useful in the college search process 
provided by the Department of Education (ED)--most of which is derived 
from data collected and disseminated by the National Center for 
Education Statistics--is consistently distributed to consumers. It is 
very unusual to find the same data element from the same time period 
having two different values in the information provided by ED.
    The key point here is the same data element from the same time 
period. You may find similar data elements reported with different 
values; one example would be the sticker price reported for a 
particular college as compared to the net price. Similarly, there may 
be situations where one data element is reported with values from two 
different time periods on different tools disseminated by ED. When this 
does occur, it is usually related to differences in data collection or 
propagation schedules.
    In general, however, my experience is that there is good 
consistency across the various ED tools available to students and 
parents.

    2. The College Navigator displays data at the institutional level. 
Do you think that collecting data at this level assists the current 
college-going population or do you believe we need to display 
information by program? What information might we want at the 
programmatic level?

    The Chairman has raised a very good point. Right now, all the data 
in the ED College Navigator is at the institutional level, not the 
program level within institutions. At present, I do not see this as 
particularly problematic. In most institutions, the tuition prices are 
generally fairly consistent across programs, though in some 
institutions there are small numbers of programs that charge higher, or 
premium, tuition rates.
    These are generally laboratory-intensive programs with higher 
costs, such as nursing, laboratory science, and the like.
    However, if the ED begins to disseminate more information about the 
earnings of graduates of particular programs, then the College 
Navigator would be enhanced if it provided data at the program level. 
This is because the earnings of students with different majors within 
an institution are often greater than differences in the average 
earnings of students across institutions. Right now, there is not an 
accurate and reliable source of earnings data for students by 
institution, never mind within different programs at institutions (I 
recently blogged about this issue--see part one at http://
edwp.educ.msu.edu/dean/2013/measuring-the-return-on-investment-of-
attending-college-part-1/ and part two at http://edwp.educ.msu.edu/
dean/2013/measuring-the-return-on-investment-of-attending-college-part-
2/).
    If the Congress does agree to consider allowing ED to develop a 
student-level unit record data system, this would be a step toward 
collecting better data on the earnings of graduates of colleges and 
universities at the program level. This could be accomplished by 
matching university records with Social Security earnings records. If 
this step is taken, then providing College Navigator data at the 
program level could be useful to students and families.
    In addition, if colleges move more toward charging differential 
tuition--varying tuition rates for different majors--than it would be 
useful to have these different program rates reported in the College 
Navigator.
                     representative richard hudson
    1. Dr. Heller, you mentioned that both traditional-aged students as 
well as adults returning to college generally are looking at 
institutions close to where they live. What other metrics, besides 
location, do traditional-aged students examine when choosing a college? 
Do these vary for non-traditional students?

    For traditional-aged students, the price of college and 
availability of financial aid are important and growing factors in 
their decisions regarding where to attend college. The research shows 
that sensitivity to price is inversely related to income, i.e., the 
lower the financial resources of the student and her family, the 
greater is her sensitivity to rising prices.
    There are also a number of other characteristics that the research 
shows can influence traditional-aged students' decisions about college 
attendance. These include: size of institution; racial/gender mix; 
program availability; retention and graduation rates; urban/suburban/
rural location; support services; and campus amenities, including 
housing, dining, and cultural and recreational facilities.
    For non-traditional students, price and availability of financial 
aid are also important factors, as are program availability. However, 
the other factors mentioned above tend to be less important for adult, 
working students, and location and price tend to be most important.

    2. Your testimony mentions that the Department of Education can 
improve upon the information it currently provides to students and 
families. Are there more appropriate or accessible ways the federal 
government can present data to students, parents, and taxpayers?

    As I stated in my testimony, we have a plethora of data available 
about colleges, but less information that is truly useful to students 
and parents who are trying to distinguish among different institutions. 
I do not believe there is much more the federal government can do to 
improve the delivery and availability of existing data to students and 
their families.
    What we need is more help for potential college attendees to wade 
through the data that are already available, and this is where better 
access to college counselors and the like can be helpful. This is 
particularly true for first generation college students.
                                 ______
                                 
                                             U.S. Congress,
                                      Washington, DC, June 5, 2013.
Dr. Nicole Hurd, Founder and Executive Director,
National College Advising Corps, 200 No. Greensboro, Suite C8, 
        Carrboro, NC 27510.
    Dear Dr. Hurd: Thank you for testifying before the Subcommittee on 
Higher Education and Workforce Training at the hearing entitled, 
``Keeping College Within Reach: Enhancing Transparency for Students, 
Families and Taxpayers,'' on Wednesday, April 24, 2013. I appreciate 
your participation.
    I have enclosed an additional question for inclusion in the final 
hearing record. Please provide a written response no later than June 
19, 2013. Responses should be sent to Amy Jones, Brian Melnyk or Emily 
Slack of the committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                 Virginia Foxx, Chairwoman,
           Subcommittee on Higher Education and Workforce Training.
    During the hearing, you mentioned a study that looked at the 
effects of providing better information about the full range of 
college-going opportunities to low-income, high-achieving students. 
Could you please provide the committee with a copy of that study and an 
explanation of whether or not it is evidenced based and data driven? If 
it is not evidence based and data driven, do you know of any studies 
that are which show similar results?
                                 ______
                                 

       Dr. Hurd's Response to Questions Submitted for the Record_

                         college advising corps
Recommended Reading on Access
Advisory Committee on Student Financial Assistance. (2002). Access 
        denied: Restoring the nation's commitment to equal educational 
        opportunity. Washington, DC: U.S. Government Printing Office.*

Advisory Committee on Student Financial Assistance. (2002). Empty 
        promises: The myth of college access in America. Washington, 
        DC: U.S. Government Printing Office.*

Advisory Committee on Student Financial Assistance. (2006). Mortgaging 
        our future: How financial barriers to college undercut 
        America's global competitiveness. Washington, DC: U.S. 
        Government Printing Office.*

Beasley, Sarah and Neal Holly. (2013) To improve completion, remember 
        the countryside. http://chronicle.com/article/To-Improve-
        Completion/139183/

Bowen, W.G. and Bok, D. (1998). The Shape of the River: Long-term 
        consequences of considering race in college and university 
        admissions. Princeton University Press.

Bowen, W.G., Chingos, M.M., McPherson, M.S. (2009). Crossing the Finish 
        Line: Completing college at America's Public Universities. 
        Princeton University Press.

Bowen, W.G., Kurzweil, M.A., Tobin, E.M. (2005) Equity and Excellence 
        in American Higher Education. University of Virginia Press.

Castleman, Benjamin L. and Lindsay S. Page. (2009). Stemming the summer 
        flood: An experimental study of college counselor intervention 
        the summer after high school graduation on low-income students' 
        college enrollment.

Ibid. (2010). A trickle or a torrent? Understanding the extent of 
        summer ``melt'' among college-intending high school graduates.

Ibid. (2012). The forgotten summer: Does the offer of college 
        counseling the summer after high school mitigate attrition 
        among college-intending low-income high school graduates?

Clinedinst, Melissa E., et al. (2011). 2011 State of Admissions 
        (National Association for College Admissions Counseling). 
        http://www.nacacnet.org/research/research-data/Documents/
        2011SOCA.pdf

College Cost and Financial Aid Handbook. (2006). College Board 
        Publications.

College Counseling Sourcebook: Advice and Strategies from Experienced 
        School Counselors, 6th edition. College Board Publications.

Corwin Z., & W. Tierney. (2007). Getting there and beyond: Building a 
        culture of college-going in high schools. Los Angeles: Center 
        for Higher Education Policy Analysis.

Cushman, Kathleen. (2005). First in the family: Advice about college 
        from first-generation students; Your High School Years. (Vol. 
        1). Providence, RI: Next Generation Press.

Cushman, Kathleen. (2006). First in the family: Your college years: 
        Advice about college from first-generation students. (Vol. 2). 
        Providence, RI: Next Generation Press.

Dowd, A.C., E. M. Bensimon, G. Gabbard, S. Singleton, E. Macias, J. R. 
        Dee, T. Melguizo, J. Cheslock, and D. Giles. 2006. Transfer 
        access to elite colleges and universities in the United States: 
        Threading the needle of the American dream--The study of 
        economic, informational, and cultural barriers to community 
        college student transfer access at selective institutions. 
        http://www.jkcf.org/grants/community-college-transfer/research/
        transfer-access-to-elite-colleges-and-universities-in-the-
        united-states-threading-the-needle-of-the-/

Heller, D., ed. (2002). The condition of access: Higher education for 
        lower income students. Westport, CT: Praeger Publishers.

Hoxby, Caroline and Sarah Turner. (2013). Expanding college 
        opportunities for high-achieving, low income students.

Kozol, Jonathan. (2005). The shame of the nation: The restoration of 
        apartheid schooling in America. New York: Three Rivers Press.

Kravets, Marybeth &Wax, Imy. (2007). The K & W Guide to Colleges for 
        Students with Learning Disabilities or Attention Deficit/
        Hyperactivity Disorder (ADHD) 9th Edition. Random House, Inc. 
        NY.

Lerner, J. B. Brand. (2006). The college ladder: Linking secondary and 
        postsecondary education for success for all students. 
        Washington, DC: American Youth Policy Forum.

Lumina Foundation, The. (2012). A stronger nation through higher 
        education: How and why Americans must achieve a Big Goal for 
        college attainment. http://www.luminafoundation.org/
        publications/A_stronger_nation_through_higher_education.pdf

Mathews, Jay. (2003). Harvard Schmarvard: Getting beyond the Ivy League 
        to the college that is best for you. Roseville, CA: Prima 
        Publishing.

McPherson, M. S., & Schapiro, M. O. (Eds.). (2006). College access: 
        Opportunity or privilege?. New York: The College Board.

Meece, Judith, et al. Educational aspirations of rural adolescents. 
        http: / / www.nrcres.org / Research % 20Briefs / HSA / HSA % 
        20Educational % 20Aspirations % 20brief.pdf

Pope, Loren. (2006). Colleges that change lives: 40 schools that will 
        change the way you think about colleges (Rev. Ed.). New York: 
        Penguin Books.

Ramsey, J. (2008). Creating a high school culture of college-going: The 
        case of Washington State achievers. Washington, DC: Institute 
        for Higher Education Policy.

Roderick, M., et al. (2008). From high school to the future: Potholes 
        on the road to college. Chicago: Consortium on Chicago School 
        Research. http://ccsr.uchicago.edu/publications/
        CCSR_Potholes_Report.pdf

Rugg, Frederick. (2007). Rugg's Recommendations on the Colleges, 24th 
        Edition.

Sacks, Peter. (2007). Tearing down the gates: Confronting the class 
        divide in American education. Berkeley: University of 
        California Press.

Sherwin, Jay. (2012). Make me a match. Helping low-income and first-
        generation students make good college choices. http://
        www.mdrc.org/sites/default/files/policybrief_24.pdf

Smith, Jonathan. (2011). Can applying to more colleges increase 
        enrollment rates? http://advocacy.collegeboard.org/sites/
        default/files/
        11b_4313_College%20App%20Research%20Brief_WEB_111026.pdf

Stephan, Jennifer L. and James E. Rosenbaum. (2012). Educational 
        Evaluation and Policy Analysis: Can high schools reduce college 
        enrollment gaps with new counseling model? http://
        epa.sagepub.com/content/35/2/200

Suskind, Ron. (1998). A hope in the unseen: An American odyssey from 
        the inner city to the Ivy League. New York: Broadway Books.

The College Admissions Data Hyper-Handbook. Wintergreen Orchard House. 
        www.wintergreenorchardhouse.com/wgoh_hyper_handbook.html

Tierney, William G., et al. (2009). Helping students navigate the path 
        to college: What high schools can do. http://ies.ed.gov/ncee/
        wwc/pdf/practice_guides/higher_ed_pg_091509.pdf

U.S. Department of Education. (2011). College Completion Tool Kit. 
        http://www.whitehouse.gov/sites/default/files/
        college_completion_tool_kit.pdf

Wyner, J.S., J. M. Bridgeland, J. J. Diiulio Jr. 200y. Achievement 
        trap: How America is failing millions of high-achieving 
        students from lower-income families. http://www.jkcf.org/news-
        knowledge/research-reports/
                                 notes
    *The first three reports can be found at http://www.ed.gov/about/
bdscomm/list/acsfa/edlite-publications.html.

    Another helpful site is the Pathways to College Network, an online 
library of access practice and research: http://
www.pathwaystocollege.net/PCNLibrary/ListTopics.aspx.
    For literature related to specific populations, check out 
Excelencia in Education (http://www.edexcelencia.org/), which has 
reports on serving Hispanic/Latino students, and the Institute for 
Higher Education Policy (http://www.ihep.org/), which has a report on 
increasing higher education access for immigrant students.
    The Center for Higher Education Policy Analysis (CHEPA) at the 
University of Southern California's Rossier School of Education has an 
excellent repository of online papers about college access and 
financial aid: http://www.usc.edu/dept/chepa/papers_publications.html.
                                 ______
                                 
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
